<html>
<title> - THE FUTURE OF NUCLEAR DETERRENCE</title>
<body><pre>[Senate Hearing 105-159]
[From the U.S. Government Printing Office]


<DOC>


                                                        S. Hrg. 105-159


 
                    THE FUTURE OF NUCLEAR DETERRENCE

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON INTERNATIONAL SECURITY,
                  PROLIFERATION, AND FEDERAL SERVICES

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 1997

                               __________

      Printed for the use of the Committee on Governmental Affairs


                   U.S. GOVERNMENT PRINTING OFFICE
38-379 cc                  WASHINGTON : 1997


_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOHN GLENN, Ohio
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              JOSEPH I. LIEBERMAN, Connecticut
SAM BROWNBACK, Kansas                DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi            ROBERT G. TORRICELLI, New Jersey
DON NICKLES, Oklahoma                MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michal Sue Prosser, Chief Clerk
                                 ------                                

   SUBCOMMITTEE ON INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL 
                                SERVICES

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
DON NICKLES, Oklahoma                ROBERT G. TORRICELLI, New Jersey
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
                   Mitchel B. Kugler, Staff Director
                       Julie Sander, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Cochran..............................................     1
    Senator Levin................................................     2
    Senator Stevens..............................................    15
Prepared statement:
    Senator Glenn................................................    53

                               WITNESSES
                      Wednesday, February 12, 1997

Hon. Walter B. Slocombe, Under Secretary of Defense for Policy, 
  Department of Defense..........................................     3
General Andrew J. Goodpaster, U.S. Army (Retired), Co-Chair, The 
  Atlantic Council of the United States..........................    25
Richard Perle, Resident Fellow, American Enterprise Institute....    33

                     Alphabetical List of Witnesses

Goodpaster, Gen. Andrew J. (Ret.):
    Testimony....................................................    25
    Prepared statement...........................................    29
Perle, Richard:
    Testimony....................................................    33
    Prepared statement...........................................    39
Slocombe, Hon. Walter B.:
    Testimony....................................................     3
    Prepared statement...........................................    20

                                APPENDIX

Questions and Answers from Senator Glenn for:
    Hon. Slocombe................................................    53
    General Goodpaster...........................................    60
Joint Statement on Reduction of Nuclear Weapons by Generals 
  Goodpaster and Butler..........................................    61
Statement on Nuclear Weapons by International Generals and 
  Admirals.......................................................    62


                    THE FUTURE OF NUCLEAR DETERRENCE

                              ----------                              


                      WEDNESDAY, FEBRUARY 12, 1997

                               U.S. Senate,        
            Subcommittee on International Security,        
                   Proliferation, and Federal Services,    
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thad Cochran, 
Chairman of the Subcommittee, presiding.
    Present: Senators Cochran, Stevens, Levin, and Durbin.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. The Subcommittee will please come to 
order. I'd like to welcome everyone to the first hearing of 
this Governmental Affairs Subcommittee on International 
Security, Proliferation, and Federal Services. The topic of 
today's hearing is the future of nuclear deterrence.
    This hearing is held in a security environment that is 
radically different from the one faced by the United States a 
few years ago. Perhaps James Woolsey, President Clinton's first 
Director of Central Intelligence, best summed up this changed 
environment when he said, ``We have slain a large dragon, but 
we live now in a jungle filled with a bewildering variety of 
poisonous snakes.''
    Congress has an obligation to understand this new 
environment and to examine critically the premises upon which 
our national security has been based, including issues such as 
the size and composition of our strategic offense force, 
proliferation, arms control, and ballistic missile defense. We 
must decide whether the concepts of the past continue to make 
sense in this new security environment, require just some fine-
tuning, or have outlived their usefulness.
    The subject of nuclear deterrence is ripe for review. Back 
on the 4th of December, Generals Andrew Goodpaster and Lee 
Butler issued a joint statement at the National Press Club that 
was described in the press advisory as ``an unprecedented 
statement for the elimination of nuclear weapons.'' This joint 
statement, coming from two retired senior officers, one the 
former Supreme Allied Commander in Europe, the other the former 
Commander-in-Chief of Strategic Command, stirred up quite a 
controversy. The controversy was enlarged the following day by 
the release of the ``Statement on Nuclear Weapons by 
International Generals and Admirals,'' which was endorsed by an 
international group of 60 retired senior military officers.\1\
---------------------------------------------------------------------------
    \1\ The Joint Statement on Reduction of Nuclear Weapons by Generals 
Goodpaster and Butler, and the Statement on Nuclear Weapons by 
International Generals and Admirals appears in the Appendix on page 61.
---------------------------------------------------------------------------
    Today's hearing will examine the underlying rationale for 
their proposals regarding nuclear weapons and deterrence as 
well as other alternatives.
    The central question we will explore in this hearing is, 
``Do nuclear weapons continue to have an important role in 
America's national security strategy? '' We are fortunate to 
have with us today three witnesses who are well qualified to 
comment on this issue. We will begin with Under Secretary of 
Defense for Policy Walt Slocombe, who will lay out the 
administration's perspective on nuclear deterrence.
    Secretary Slocombe will be followed by General Goodpaster, 
whose public service spans seven decades and who is currently 
the Co-Chair of The Atlantic Council of the United States, and 
Richard Perle, now a Resident Fellow at the American Enterprise 
Institute and formerly a senior defense official during the 
administration of President Ronald Reagan. We are very grateful 
for the attendance of the witnesses and for their good 
assistance to our Subcommittee. Secretary Slocombe, we welcome 
you to the Committee and we ask you to proceed. We have a copy 
of your statement for which we thank you very much and for 
which we are very grateful.
    Let me first of all call on my distinguished colleague 
Senator Levin from Michigan for any comments he might have. 
Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman, and, first, let me 
congratulate you on not only becoming chair of this 
Subcommittee but also on the jurisdiction of the Subcommittee. 
You are a great person to be a chairman. You are a great 
person, period. But the breadth of the jurisdiction of this 
Subcommittee means that we are in for really fascinating 
hearings right at the heart of a whole lot of critical issues, 
including today's hearing. So I want to just tell you, Mr. 
Chairman, I am delighted to be the ranking member on your 
Subcommittee.
    This Subcommittee, as I mentioned, has unusual breadth of 
jurisdiction, everything from nuclear delivery vehicles, for 
instance, which is the subject of today's hearing, to postal 
delivery vehicles. We have got some wonderful witnesses today, 
and I want to join our chair in welcoming Secretary Slocombe 
and General Goodpaster, and I know Richard Perle is due here 
later. It is a great way to kick off this Subcommittee's 
history, and I look forward to participating with you in that 
history. Thank you, Mr. Chairman.
    Senator Cochran. Thank you very much, Senator Levin. 
Senator Durbin, any opening comments?
    Senator Durbin. I do not have any. Thank you.
    Senator Cochran. Mr. Secretary, you may proceed.

             TESTIMONY OF HON. WALTER B. SLOCOMBE,

             UNDER SECRETARY OF DEFENSE FOR POLICY,

                     DEPARTMENT OF DEFENSE

    Mr. Slocombe. Thank you, Mr. Chairman. As you said, you 
have my full statement. We noticed a couple of typographical 
errors overnight, and we have a final version of it, which I 
will submit. Let me summarize what it says.
    Nuclear deterrence has been the subject of much debate over 
the decades, and that debate has been resumed and sharpened 
after the end of the Cold War. Most recently, the question has 
been given special prominence by the respected individuals and 
committees who advocate a radical change, setting as a policy 
goal the complete abolition of nuclear weapons. And I cannot 
begin without acknowledging that General Goodpaster and General 
Butler are very distinguished military officers, and their 
views are always entitled to great respect, although in this 
case I disagree at least with an important element of what they 
are saying.
    These calls for reexamination of our nuclear deterrent 
policy underscore the continuing American and world interest in 
a deliberate process to further reduce and ultimately eliminate 
nuclear weapons. The United States has embraced this commitment 
for many years, and it is formally reflected in the Nuclear 
Nonproliferation Treaty signed in 1968, Article VI of which 
calls on the parties to undertake to ``pursue negotiations in 
good faith relating to cessation of the nuclear arms race at an 
early date and to nuclear disarmament, and on a treaty on 
complete and general disarmament under strict and effective 
international control.''
    President Clinton in his speech to the United Nations this 
past September said he looks forward to a new century in which 
the roles and risks of nuclear weapons can be further reduced 
and ultimately eliminated. The United States has made 
remarkable progress in fulfilling our NPT Article VI 
commitment. Indeed, in an important sense, the nuclear arms 
race in the sense we understood it during the Cold War has been 
halted. The United States and indeed Russia have been reducing 
nuclear stockpiles, both by unilateral and bilateral 
initiatives.
    Over the past 4 years, the Clinton administration has 
worked hard on this process. We have secured the detargeting of 
U.S. and Russian strategic missiles, the entry into force of 
the START I Treaty, the complete denuclearization of Ukraine, 
Belarus and Kazakstan, the indefinite extension of the Nuclear 
Nonproliferation Treaty, United States ratification of the 
START II Treaty, and work with the Russian government to 
promote Duma ratification of that treaty, and successful 
negotiation of the Comprehensive Nuclear Test Ban Treaty.
    We have also made clear that once START II enters into 
force, we are prepared to work on further reductions in 
strategic nuclear arms as well as on limiting and monitoring 
nuclear warheads and materials. Those are important 
accomplishments and there is much more to do, but we are not by 
any means yet at the point where we can eliminate our nuclear 
weapons. For the foreseeable future, we will continue to need a 
reliable and flexible nuclear deterrent, survivable against the 
most aggressive attack, under highly confident constitutional 
command and control, and assured in its safety against both 
accident and unauthorized use.
    We need such a force because nuclear deterrence, far from 
being made wholly obsolete, remains an essential ultimate 
assurance against the gravest of threats. A key conclusion of 
the administration's national security strategy released just a 
year ago is that ``The United States will retain a triad of 
strategic nuclear forces sufficient to deter any future hostile 
foreign leadership with access to strategic nuclear forces from 
acting against our vital interests and to convince it that 
seeking a nuclear advantage would be futile. Therefore, we will 
continue to maintain nuclear forces of sufficient size and 
capability to hold at risk a broad range of assets valued by 
such political and military leaders.''
    To summarize the argument I will develop in more detail in 
my statement, we have already made dramatic steps in reducing 
U.S., Russian and indeed other nuclear arsenals and potentials. 
We have also taken important steps to ensure the safety, 
security, and non-diversion of remaining nuclear weapons.
    Second, we can and should do more on both the reduction and 
the safety and security fronts. Third, nonetheless, nuclear 
weapons remain essential to deter against the gravest threats, 
actual and foreseeable. Fourth, abolition of nuclear weapons, 
if understood as a near-term goal rather than, as President 
Clinton has stated, an ultimate aspiration, is not a wise and 
surely not a feasible focus for current policy efforts. And 
finally, assuring the reliability of our nuclear forces and the 
nuclear stockpile, therefore, remains a high national security 
priority.
    In my statement, I summarize briefly the Cold War 
experience with nuclear weapons. Some argued even during the 
Cold War that the danger of nuclear holocaust, which is 
unimaginable in its scope, was so great that the risk of 
possessing these weapons far outweighed their benefits. I do 
not agree, and I do not think the historical record supports 
that position.
    Nuclear deterrence helped us buy time, time for internal 
forces of upheaval and decay to rend the Soviet Union and the 
Warsaw Pact and bring about the end of the Cold War. But the 
Cold War is over, and it is important to recognize the degree 
to which our nuclear deterrent and indeed that of Russia has 
been transformed even during the relatively short period of 
time since the wall came down. The role of nuclear weapons in 
our defense posture has diminished dramatically. We in the 
Department of Defense welcome this trend and expect it will 
continue in the future. In the sincerest of currency, U.S. 
spending on strategic forces, the emphasis has declined 
dramatically. In the mid-1960's, we were spending about a 
quarter of our defense budget on strategic nuclear forces. We 
now spend something like 3 percent.
    We have no major procurement programs for next generation 
systems. We do have programs designed to sustain the 
effectiveness, safety and reliability of the remaining forces, 
and to ensure the continued high quality of the people who man 
them.
    Russian spending on strategic forces has also declined 
substantially. The Russian Federation does have some strategic 
systems under development, for example, a new single warhead 
ICBM, the SS-X-27, and a new strategic ballistic missile 
submarine, but these programs are far fewer in number, and 
their development and deployment pace far slower than during 
the Cold War period.
    Stabilizing agreed reductions in nuclear forces have been 
and continue to be a primary objective of the United States. 
The United States and Russia have taken great strides in this 
regard in recent years. START I will reduce each side's 
deployed strategic weapons from well over 10,000 to 6,000 
accountable weapons. Russia, like the U.S., is actually 
somewhat ahead of schedule in meeting the START I reduction 
requirements. START II, when it is ratified by the Russian Duma 
and enters into force, will further reduce to 3,000 to 3,500 
each side's weapons. Following START II's entry into force, we 
are prepared to engage in negotiations further reducing 
strategic nuclear forces.
    Meanwhile, the United States has unilaterally reduced its 
non-strategic nuclear weapons to one-tenth--I say again one-
tenth--of Cold War levels. Russia pledged in 1991 to make 
significant unilateral cuts itself in its non-strategic forces, 
and it has reduced its operational non-strategic force 
substantially. It has made far less progress on this score than 
the United States, and the Russian non-strategic arsenal 
deployed and stockpiled is probably about 10 times as large as 
ours.
    In addition to START reductions, there have been 
qualitative changes in our nuclear arsenal. There used to be 
nuclear land-mines, nuclear artillery, nuclear infantry 
weapons, tactical nuclear surface-to-surface weapons, nuclear 
surface-to-air weapons, nuclear air-to-air weapons, nuclear 
depth-charges, and nuclear torpedoes. All these have gone. In 
1991 and 1992, the United States unilaterally stopped several 
nuclear weapons programs like Lance and SRAM-A. We halted a 
number of planned or ongoing development programs, which had 
been the focus of passionate controversy during the 1980's, 
like the Small ICBM, the Peacekeeper Rail Garrison and the 
Lance Follow-On Theater Missile. We took nuclear bombers off 
strip alert and removed from alert as well, well ahead of the 
required schedule, those ICBMs and strategic missile submarines 
planned for elimination under START II. We made dramatic cuts 
in our tactical nuclear forces. In 1994, further reflecting the 
changed international situation, the United States and Russia 
agreed to no longer target their ballistic missiles against 
each other on a day-to-day basis.
    In parallel with this, we have been pressing the 
proliferation question. Clearly, there are serious problems, 
but the picture is not all bleak. No nation has openly joined 
the nuclear club since China in 1964. There are only three 
unacknowledged nuclear powers. South Africa abandoned its 
nuclear capability, as Ukraine, Belarus and Kazakstan did 
theirs. Argentina and Brazil have renounced the option, as 
Sweden and Canada did long ago. North Korea's program is 
effectively frozen. Iraq is under a special and highly 
intrusive United Nations inspection regime. The vast majority 
of the countries in the world support a permanent nuclear 
nonproliferation treaty, which is mostly a benefit which the 
non-nuclear countries confer upon each other in the world and 
not a favor they do for the nuclear powers. And we have 
negotiated an end to nuclear testing.
    With all this, the question, however, is rightly asked: 
Granted all these reductions with the end of the Cold War, why 
do we need to continue to maintain a nuclear deterrent at all? 
In September 1994, the Clinton administration answered this 
question in its Nuclear Posture Review, the first comprehensive 
post-Cold War review of nuclear policy. The NPR recognized that 
with the dissolution of the Warsaw Pact and other dramatic 
changes, the strategic environment had been transformed. 
Conventional forces, therefore, could and should and would 
assume a far larger share of the deterrent role. The 
administration concluded nonetheless that nuclear weapons 
continue to play a critical role in deterring aggression 
against the United States, its overseas forces, its allies and 
friends.
    That conclusion is entirely consistent with NATO's 
Strategic Concept, adopted in 1991 after the end of the Cold 
War, which states that ``The fundamental purpose of NATO's 
nuclear force is to preserve peace and prevent coercion and any 
kind of war and that nuclear weapons make a unique contribution 
in rendering the risks of aggression incalculable and 
unacceptable.''
    Why did we and why did NATO reach these conclusions? Most 
importantly, because the positive changes in the international 
environment are far from irreversible, and we can foresee new 
dangers. There are broadly two classes of threat against which 
nuclear weapons remain important as a deterrent. First, Russia. 
Russia has made great progress, and we do not regard it as a 
potential military threat under its present or indeed any 
reasonably foreseeable government. The United States wisely 
invests substantially in the Cooperative Threat Reduction 
program, in future arms control, and in political efforts to 
maintain good relations. We share with the current Russian 
leadership and indeed with most of their opponents a 
determination not to let our relations ever return to the state 
of hostility in which the weapons each country possesses would 
be a threat to the other.
    All that said, Russia continues to possess substantial 
strategic nuclear forces and an even larger stockpile of 
tactical nuclear weapons. And because of deterioration in its 
conventional military capabilities, Russian spokesmen have 
indicated that they may place even more reliance on nuclear 
forces on the future. We cannot be so certain of future Russian 
politics and policies as to ignore the possibility that we 
would again need to deter this Russian nuclear force.
    Accordingly, with respect to Russia, our nuclear policy is 
what Secretary Perry called ``lead and hedge,'' leading toward 
further reductions and increased weapons safety and improved 
relations and hedging against the possibility of reversal of 
reform in Russia. We do not believe that reversal is likely, 
but we are working to manage the risk. Nonetheless, we feel it 
is prudent to provide a hedge against its happening.
    Second, even if we could ignore the Russian nuclear arsenal 
entirely, there are unfortunately a range of other potential 
threats to which nuclear weapons are needed as a deterrent. One 
cannot survey the list of rogue states with potential WMD 
programs and conclude otherwise. Indeed, the knowledge that the 
United States has a powerful and ready nuclear capability is, I 
believe, a significant deterrent to proliferators who even 
contemplate the use of weapons of mass destruction. That this 
is so, I think, will be clear if one thinks about the 
proliferation incentives that would be presented to the 
Kaddafis and Kim-Chong-Ils of the world if the United States 
did not have a reliable and flexible nuclear capability.
    Of course, nuclear weapons are only a part of the broad 
range of capabilities by which we seek to prevent, deter and if 
necessary defend against threats from weapons of mass 
destruction. Passive defenses, improved intelligence, 
diplomatic efforts, active air, cruise missile and ballistic 
missile defense, and powerful and precise conventional 
capabilities, each have key roles to play, but nuclear weapons 
also play a part.
    In view of this, it is our conclusion that it would be 
irresponsible to dismantle the well-established and much-
reduced system of nuclear deterrence before new and reliable 
systems or substitute systems for preserving stability are in 
place.
    What about the argument that our weapons promote 
proliferation? The more compelling case seems to me that 
proliferant states acquire nuclear weapons not because we have 
them but for reasons of their own: to counter regional 
adversaries, to further regional ambitions, and to enhance 
their status among their neighbors and in the world. And 
insofar as our nuclear capability is an issue, if a successful 
proliferator knew he would not face the nuclear potential of 
the United States, that would scarcely reduce incentives to 
acquire a WMD capability. The incentives to proliferate would 
increase dramatically if a rogue state would through a 
successful nuclear weapons program acquire a nuclear monopoly 
and not just a token capability facing far stronger forces 
possessed by the United States and other world powers.
    Some people claim that once proliferation does occur, U.S. 
nuclear forces lack any utility in deterring rogue leaders from 
using those weapons because those leaders would not regard the 
costs even of nuclear retaliation as sufficiently great. Of 
course, their calculations of risk and rewards undoubtedly 
differ from our own, and we must take that into account. But 
experience suggests that few dictators are, in fact, 
indifferent to the preservation of key instruments of their 
State control or to the survival of their own regimes or indeed 
their own persons and associates. Thus, I believe the reverse 
is true. Our nuclear capabilities are more likely to give pause 
to potential rogue proliferants than to encourage them.
    Another important role of U.S. nuclear capability in 
preventing the spread of nuclear weapons should not go 
unnoticed. The extension of a credible U.S. nuclear deterrent 
to allies and friends has been an important nonproliferation 
tool. It has removed incentives for key allies in a still 
dangerous world to develop and deploy their own nuclear forces, 
as many are quite capable of doing from a technical point of 
view. Indeed, our strong security relationships have probably 
played as great a role in nonproliferation over the past 40 
years as the NPT or any other single factor.
    Let me address the argument that nuclear weapons should be 
eliminated because they are dangerous and unsafe. Of course, 
nuclear weapons are dangerous. Quite apart from their potential 
to cause incalculable destruction if they are used, they 
contain high explosives and fissile material. But they are not 
unsafe in the sense that they are susceptible to accidental 
detonation or unauthorized use. Our nuclear weapons meet the 
highest standards of safety, security, and responsible 
custodianship. Moreover, we place high priority on maintaining 
and improving stockpile safety as well as reliability. Our 
nuclear safety record is extraordinary. Although a few 
accidents involving nuclear weapons have occurred, no such 
accident has ever resulted in a nuclear detonation or a nuclear 
yield, and the last accident of any kind was almost 20 years 
ago.
    We believe the likelihood of accidents has been 
dramatically reduced since the end of the Cold War, and I 
detail the statements which we have made to that end in the 
statement. In addition, nuclear weapons security in Russia has 
been a key element of the Department of Defense's Cooperative 
Threat Reduction program with Russia, better known as the Nunn-
Lugar program, from the beginning. It is clear that Russian's 
military and civilian leaders themselves, and for their own 
reasons, place a high priority on preserving effective control 
over their nuclear arsenal. It is every bit in our interest 
that they should do so. $100 million in CTR assistance has been 
made available for projects to enhance security of nuclear 
weapons under Ministry of Defense control in Russia.
    On balance, the safety risks of maintaining a smaller 
nuclear arsenal are far outweighed by the security and non-
proliferation benefits that we continue to derive from nuclear 
deterrence.
    With respect to the general argument for abolition, I would 
summarize the case for retaining nuclear weapons for the 
foreseeable future as follows. First, whatever would be 
desirable, there is, in fact, no reasonable prospect that all 
the declared and de facto nuclear powers will agree in the near 
term to give up all their nuclear weapons. But as long as one 
such State refuses to do so, it will be necessary for us to 
retain a nuclear force of our own.
    Second, if the nuclear powers were somehow to agree to 
accept abolition, that acceptance would require Congress, the 
public--the U.S. Government would rightly demand--a 
verification regime of extraordinary rigor and intrusiveness. 
This would have to go far beyond any currently in existence or 
even under contemplation, and it would have to include not 
merely a system of verification, but what the International 
Generals Statement calls, ``an agreed procedure for forcible 
international intervention and interruption of covert efforts 
in a certain and timely fashion.''
    The difficulties with setting up such a system under 
current world conditions are obvious. Such a regime would have 
to continue to be effective in the midst of prolonged and grave 
crisis between potentially nuclear-capable powers even during a 
war between such powers, for in such a crisis, in an abolition 
regime, the first question for all involved would be that of 
whether or when to start a clandestine nuclear program so as to 
avoid another beating them to the goal, for the knowledge of 
how to build nuclear weapons cannot be abolished.
    Finally, we who are charged with responsibility for 
national security and national defense, both in the executive 
branch and in Congress, must recall that we are not only 
seeking to avert a nuclear war. We are seeking to avert major 
conventional war as well. As I indicated earlier, during the 
Cold War, nuclear weapons played a stabilizing role in that 
they made the resort to military force less likely. The world 
is still heavily armed with advanced conventional weapons and 
will increasingly be so armed with weapons of mass destruction. 
The existence of nuclear weapons continues to serve as a damper 
on resort to the use of force.
    Because nuclear deterrence is to remain a part of our 
national security policy for the foreseeable future, the United 
States nuclear deterrent has to remain credible. Weapon systems 
must be effective and their warheads safe and reliable. 
Quality, reliability and effectiveness of the forces 
themselves, including the communication and command systems 
which are essential to their functioning, and the people who 
operate them, are among our top priorities in the Department of 
Defense. With respect to the nuclear devices themselves, DOE, 
which has the responsibility, has an aggressive, well-funded 
program designed to ensure that our weapons remain safe and 
reliable in the absence of nuclear testing.
    The Department of Defense fully supports this program. We 
also strongly support the principle that if for some reason the 
Department of Defense and the Department of Energy could not 
certify the reliability of a critical element of our deterrent 
without nuclear testing, the United States would have to give 
the most serious consideration to exercising its right under 
the Test Ban Treaty to withdraw from the treaty under the 
supreme national interest clause for the purpose of conducting 
necessary tests. We regard that possibility as very remote 
given a properly supported and executed stewardship program.
    In short, today and for the future, assuming that program 
is carried out, we have high confidence in the safety and 
reliability of our nuclear deterrent force. The Stockpile 
Stewardship and Management Program is designed to provide the 
tools to assure this in the future.
    Our objective is a safe, stable world. We must develop our 
national security policy with the understanding that nuclear 
weapons and the underlying technical knowledge cannot be 
disinvented. In this connection, the United States will 
continue to lead the way to a safer world through deep 
reductions in nuclear forces undertaken in START and through 
the Cooperative Threat Reduction program and other actions. At 
the same time, we will maintain a smaller nuclear force as a 
hedge against a future that is uncertain and in a world which 
substantial nuclear arsenals remain.
    Successive U.S. administrations have embraced the objective 
of nuclear disarmament as our ultimate goal. What is clear is 
that this ultimate goal can be reached, if at all, only through 
realistic moves forward as genuine security permits, with each 
step building on those before it. We will continue to strive to 
make the world a safer place for our children and grandchildren 
and successor generations. In this regard, we are committed to 
the ultimate objective of elimination of nuclear weapons in the 
context of complete and general disarmament. Until these 
conditions are realized, however, I believe that nuclear 
weapons will continue to fulfil an essential role in meeting 
our deterrence requirements and assuring our non-proliferation 
objectives. I thank you for the Subcommittee's attention.
    Senator Cochran. Thank you, Mr. Secretary. Let me first 
commend you for the excellent effort to pull together all of 
the arguments in support of a policy of deterrence in this new 
environment. I am impressed with the effort that has obviously 
gone into the preparation of this statement.
    Mr. Slocombe. Thank you.
    Senator Cochran. And we appreciate that kind of effort for 
this hearing.
    Mr. Slocombe. Thank you, sir.
    Senator Cochran. My impression of this statement is that it 
is consistent in terms of policy with the President's 1996 
National Security Strategy of Engagement Enlargement Report, 
which he submitted to Congress last February. In that report to 
Congress, the President said, ``The United States will retain a 
triad of strategic nuclear forces sufficient to deter any 
future hostile foreign leadership with access to strategic 
nuclear forces from acting against our vital interests and to 
convince it that seeking a nuclear advantage would be futile. 
We will continue to maintain nuclear forces of such sufficient 
size and capability to hold at risk a broad range of assets 
valued by such political and military leaders.''
    Is your conclusion the same as mine that your statement is 
consistent with that statement of policy reflected in the 
President's February 1996 report to Congress?
    Mr. Slocombe. Yes, Senator Cochran, and indeed it 
incorporates that statement.
    Senator Cochran. There is a suggestion throughout the 
policy that while it may be unrealistic to have as a goal the 
elimination of nuclear weapons in the U.S. defense arsenal in 
the foreseeable future, it is not unrealistic to expect that we 
could get to low numbers of nuclear weapons and still have the 
same kind of deterrent impact. Is that a fair statement? That 
there is a difference between low numbers of nuclear weapons 
and no nuclear weapons as a matter of deterrence policy?
    Mr. Slocombe. Yes, indeed.
    Senator Cochran. There is some suggestion by some who say 
that if we were to have such low numbers that rogue States or 
other nations who think about developing a nuclear arsenal of 
their own could expect to match our arsenal or have enough 
power in their nuclear arsenal that they would risk the 
development of nuclear weapons, whereas if we had an 
overwhelming superiority, that because of expense, technical 
expertise or access to the ingredients for nuclear weapons 
production or maybe other reasons as well, that they would 
probably abandon any kind of notion. What is your reaction to 
that suggestion?
    Mr. Slocombe. As I said in the statement, it is our 
objective to reach the lowest prudent level of force for 
nuclear deterrence. What that low level is, of course, is a 
matter for analysis and study and not simply for assertion. 
Sometimes people talk about numbers in the couple of hundred 
range. For a variety of reasons, under current and foreseeable 
conditions, I believe that such low numbers would have a number 
of risks and disadvantages. One is the one you identify, that 
although very few proliferant countries would be able to get 
even to those numbers, it still is not totally out of the 
question with a massive program to match those numbers.
    Perhaps even more important, in an important sense what 
continues to be essential for a proper nuclear force is that it 
should be survivable, that it should not be susceptible to easy 
attack, and one inevitably worries, with forces of even a 
couple of hundred, whether you could meet that condition. It is 
our policy now that even the sharply reduced force should have 
a high level of survivability, and extremely low numbers have 
to be looked at very closely from that point of view.
    Thirdly, there are issues about the targeting doctrine that 
would have to be associated with such low forces. Those are 
difficult issues to go into in public session, but they tend to 
the conclusion that, unless you are content with the kind of 
strictly city-busting strategy, which has never been U.S. 
policy, there are powerful arguments not to have such small 
forces.
    Senator Cochran. In testimony in 1995, General Goodpaster 
mentioned that a 100 to 200 nuclear weapons should be 
sufficient for the United States, and President Clinton's 
current National Security Strategy calls ``for maintaining 
nuclear forces of sufficient size and capability to hold at 
risk a broad range of assets valued by such political and 
military leaders.'' I wonder if General Goodpaster's number 100 
to 200 would be ``of such sufficient size and capability? ''
    Mr. Slocombe. Well, it is obviously not our current policy 
and for the reasons stated I would have great difficulty in 
expecting to go to that low a level in the foreseeable future.
    Senator Cochran. In my opening statement, I mentioned that 
after the December 4 news conference at the National Press Club 
there was a follow-on statement by admirals and generals 
calling for a number of ``prerequisites'' that had to be 
fulfilled prior to the complete elimination of nuclear weapons, 
and in their statement they say, ``The exact circumstances and 
conditions that will make it possible to proceed finally to 
abolition cannot now be foreseen or prescribed.'' And then they 
go on to set out certain prerequisites that are ``obvious and 
essential.'' One of those is ``a worldwide program of 
surveillance and inspection including measures to account for 
and control inventories of nuclear weapons materials.''
    Is such an international monitoring system feasible, and if 
so do we have the capacity or any indication that we could 
reach an international agreement for such monitoring?
    Mr. Slocombe. Well, I suppose it is hard to say that such a 
system is infeasible. It does not violate the laws of physics. 
It would obviously be extremely difficult to set up. That said, 
one of the things which I think we will want to look at in 
successive rounds of arms control efforts with Russia are our 
efforts to get control of nuclear weapons themselves as well as 
of the delivery systems for them. As the Subcommittee will be 
aware, the existing agreements all focus entirely on the 
launchers, the missiles, the bombers, and so on, rather than on 
the nuclear warheads themselves. I think an issue to which we 
should give very careful attention as we think about future 
rounds in this effort to reduce the level of danger and the 
level of risk is whether we can move to a system of control on 
the nuclear materials and the warheads themselves, and that 
will require very different and more intrusive system of 
inspection and verification in an area that even the United 
States, much less other countries, has always regarded as 
extraordinarily sensitive. That is an issue we are looking at 
now.
    But the contrast between doing that in an effort to control 
and limit the size of arsenals and then trying to go to a 
system where you would have absolute assurance that nowhere in 
the world were people working on the development of nuclear 
weapons obviously would be a several orders of magnitude 
further step.
    Senator Cochran. There were several other prerequisites, as 
I mentioned, in this statement by international general and 
admirals. Another was that an international system could be 
supplanted by one in which regional systems for collective 
security including practical measures for cooperation, 
partnership, interaction and communication, would help protect 
us all from a nuclear threat. Would that permit the complete 
elimination of the need for nuclear weapons? Is that 
prerequisite plausible?
    Mr. Slocombe. As I understand it, one of the arguments 
which is made in behalf of abolition is that the kinds of 
security which is now assured by weapons including by nuclear 
weapons should in time be replaced by regional and 
international systems of what, in effect, would be a world 
government. That has been an aspiration of mankind for a very 
long time, and I think remains a legitimate aspiration. For a 
variety of reasons, I have some skepticism about whether it is 
going to happen terribly soon.
    I also should mention, as I mention in the statement, and I 
give credit to the generals and admirals statement for at least 
accepting the need to address these issues, which is not always 
done by people who advocate that position, they also talk about 
an agreed procedure for forcible international intervention and 
interruption of covert efforts in a certain and timely fashion. 
That is some kind of an enforcement mechanism. I think it is 
absolutely correct that if you are going to talk seriously 
about abolition as an objective, you have to address that part 
of the problem, and the difficulties with having such a system 
which would work and be acceptable are also, I think, quite 
formidable.
    Senator Cochran. Thank you very much. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. Secretary Slocombe, 
I would like to start by asking you about the Nonproliferation 
Treaty, Article VI, and how the administration interprets that 
article. I think in your testimony, you indicated that that 
article means to us that we would seek the elimination of 
nuclear weapons and pursue negotiations toward that ultimate 
goal, but only in the context of an agreement on general and 
complete disarmament, presumably meaning conventional as well 
as nuclear disarmament. Is that correct?
    Mr. Slocombe. And chemical and biological and informational 
and other kinds, I suppose.
    Senator Levin. But is it the interpretation of that article 
that our obligation to pursue negotiations to eliminate nuclear 
weapons is contingent on an agreement on general and complete 
disarmament under strict and effective international control?
    Mr. Slocombe. As I understand the treaty, it has two 
elements in terms of what Article VI promises. The first is 
negotiations in good faith relating to the cessation of the 
nuclear arms race, and we regard that as an obligation 
independent of the goal of elimination of nuclear weapons. And 
I would assert that we have, in fact, fully--we need to do 
more--but we have fully satisfied that element of the Article 
VI requirement.
    Second, that the treaty, the NPT, reflects an ultimate goal 
of the elimination of force as an instrument in international 
relations, both nuclear and conventional and other kinds, and 
that it sets out, and I think wisely reflects, that for many of 
the reasons that were developed in the Chairman's line of 
questioning, to have a system in which nuclear weapons are 
eliminated implies transformations in the international 
environment. You are not simply talking about a technical 
problem of eliminating nuclear weapons, but the conditions to 
make that possible require transformations in the international 
environment and, in particular, on the role of force in 
international affairs. So that I think the short answer to your 
question is, yes, we do regard the goals of complete nuclear 
disarmament, nuclear abolition, if you will, and the goal of a 
treaty on general and complete disarmament as closely linked.
    Senator Levin. When you read the language, it does not make 
one contingent on the other.
    Mr. Slocombe. It does not, I suppose, but I believe that is 
our sense of what the realities of attaining either goal 
entail. If it turned out somehow that one could make 
significant progress toward nuclear abolition, I do not suppose 
it is, strictly speaking, contingent. It is just difficult for 
me to see how you could meet the kinds of requirements. This is 
not a question of the United States and Russia monitoring each 
other and having a mutual interest in restraint. It is a system 
which works equally well for Libya or the drug cartels or 
whoever, so that it is a very tall order.
    Senator Levin. I think with all the difficulty of 
understanding that, nonetheless, it seems pretty clear that 
Article VI makes one obligation non-contingent on the other 
obligation. Would you comment?
    Mr. Slocombe. Senator, may I suggest that we get a formal 
legal judgment from the Office of Legal Adviser at State who 
will have the responsibility for interpreting treaties?
    Senator Levin. Yes. Do you know whether or not the other 
parties to this treaty consider one obligation contingent on 
the other? Are you familiar with it?
    Mr. Slocombe. I understand that the proper interpretation 
of Article VI is a matter of very substantial dispute.
    Senator Levin. Would you agree with Secretary Cohen that 
there would have to be significant nuclear reductions in the 
future? He is referring to numbers of nuclear weapons below the 
START II levels.
    Mr. Slocombe. Oh, yes, I think that that is a very high 
priority. It is one of the reasons it is important to get START 
II ratified in Russia so we can move on to lower levels.
    Senator Levin. Is one of the problems with START II 
ratification by the Russian Duma that it tends to drive them 
toward the production of a single warhead ICBM which they 
cannot afford?
    Mr. Slocombe. That argument is sometimes made, yes.
    Senator Levin. Do you think there is reason behind that 
feeling?
    Mr. Slocombe. At least the argument coheres. You can 
understand what they are talking about, and I think the 
solution to that, and we are working on that, is to make clear 
that we are prepared after START II comes into effect to move 
forward immediately to agree on lower levels for START III, 
which, whatever the virtue, the rights and wrongs of that 
argument, will make it unnecessary for them to build up the 
kind of levels that they are talking about. This has to do with 
a substitute--as I understand it, the argument is they have to 
get rid of the MIRVed ICBMs, and yet to fill up their quota 
they would have to build a single RV system.
    Senator Levin. Well, that was one of our goals in START II, 
to get away from the multi-warheaded land-based missiles, 
correct?
    Mr. Slocombe. Oh, yes, and it is indeed one of the 
important accomplishments of the treaty, probably the central 
accomplishment rather than----
    Senator Levin. We did not like the multiple-warheaded 
missiles.
    Mr. Slocombe. Exactly.
    Senator Levin. So in START II, we got away from them in 
terms of ICBMs. That was a goal of ours. Now the Russians face 
the situation where, to have the limit allowed to them, they 
need to build single warhead ICBMs, and they say they do not 
have the money to do it. So they say let us agree to a START 
III agreement so they do not have to lay out money, they do not 
have to build the single warhead ICBMs. Is that basically what 
they are arguing?
    Mr. Slocombe. That is one of many arguments they make.
    Senator Levin. Is that one of many arguments that they are 
making?
    Mr. Slocombe. Yes.
    Senator Levin. And you think it is not an unreasonable 
argument?
    Mr. Slocombe. It is not only not an unreasonable argument, 
it is an argument that we are prepared to meet by commitment to 
go forward immediately after the treaty comes into effect to 
agree on lower levels----
    Senator Levin. Right.
    Mr. Slocombe [continuing]. Under which they would not have 
to build up to the levels that give them the problem. I 
personally have some difficulty with their purported 
calculations of why this is infeasible and so on, but I 
understand what the argument is.
    Senator Levin. Do you mean financially infeasible?
    Mr. Slocombe. Yes.
    Senator Levin. If we are willing to negotiate to a lower 
level to avoid that problem for them, are we willing to 
negotiate some kind of a framework for that level now so they 
would know when they ratify START II that there is an agreed 
upon framework of some kind?
    Mr. Slocombe. That is certainly one of the options we have 
been talking about, yes. It has been done in a variety of other 
contexts with nuclear arms limitation treaties, and it is a 
model which may well be applicable in this context.
    Senator Levin. OK. In your statement, you say that we have 
made clear that once START II enters into force, we are 
prepared to work on further reductions, and so, as I understand 
your answer to my question, we are prepared to work on further 
reductions at least in terms of a framework for further 
reductions before START II enters into effect; is that correct?
    Mr. Slocombe. That is at least one of the options we are 
talking about with them as well as internally. One of the 
reasons that I say that their point about having to build up 
single RV ICBMs is only one of many arguments as relates to 
this question of why it is important to get the START II 
limitations in place as a legally binding agreement because we 
do not want to reopen a lot of other contentious issues where I 
think if we say, well, now, let us renegotiate the number, 
there would be very heavy pressures to do that, and as you 
know, Senator, these are difficult agreements to reach. There 
have, in fact, been four of them. It is important to go step by 
step. Each one then can be followed by a better agreement, but 
if you do not take the agreements which have been entered into 
and get them nailed down, various pressures arise, indeed, to 
some degree in both countries, to go back and renegotiate a lot 
of other issues.
    Senator Levin. Do you agree we want to negotiate lower 
limits to START II?
    Mr. Slocombe. I do not agree we want to negotiate lower 
limits. I do not want to change the limits.
    Senator Levin. I did not say in START II. You want to 
negotiate lower limits than exist in START II?
    Mr. Slocombe. Yes, as a next step.
    Senator Levin. So do they.
    Mr. Slocombe. That is correct.
    Senator Levin. It is important to them, before they ratify 
START II, that there be some awareness of those lower limits so 
they do not then need--from their perspective--to start 
building a single warhead ICBM that would then be prohibited in 
any follow-on agreement. And I am trying to find out from you 
why you seem to be reluctant to say what I have read 20 times 
in 20 different newspapers.
    Mr. Slocombe. No, I am not reluctant at all. This is an 
eminently solvable problem and one of the good ways to solve it 
is this framework agreement approach that you are talking 
about.
    Senator Levin. And if we are able to achieve that framework 
approach, then, in fact, we are prepared to work on further 
reductions, at least in terms of a framework even before START 
II enters into effect; is that correct?
    Mr. Slocombe. The short answer is yes.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Senator Cochran. Senator Stevens.

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman. I am 
sorry to come in late, Mr. Secretary. I have gone over your 
statement quickly. I had it last night also. Tell me where do 
you think our ballistic missile defense system fits into this 
picture.
    Mr. Slocombe. It is certainly an important element of our 
overall defense policy. I see it as having two roles. One has 
to do with theater missile defense, and these both relate to 
the proliferation issue. We face an immediate ballistic missile 
threat, a short-term ballistic missile threat from not a lot 
but a number of rogue States, North Korea, Iran, potentially 
Iraq, to the degree we do not keep them under the sanctions 
regime. So we have an immediate priority for tactical theater 
missile defense. That is where the focus of our effort goes.
    Second, I and the administration are quite willing to 
acknowledge that if we saw a rogue State, a potential 
proliferant, beginning to develop a long-range ICBM capable of 
reaching the United States, we would have to give very, very 
serious attention to deploying a limited national missile 
defense so as to be able to protect against that threat, and 
that is the thrust of our policy. So I agree. Ballistic missile 
defense both at the theater and the national missile defense 
level are a part of the policy. At the moment, we do not see 
that, we do not see the threat at the national missile defense 
level, but in any event, we are embarked on what now I guess 
one should call the two plus three program. That is to have now 
within 2 years developed limited national missile defense 
system capable of being deployed within a 3-year period but 
without a commitment at this point to deploy it because at this 
point we do not see the threat emerging.
    Senator Stevens. Well, I and the senator from Hawaii noted 
with interest that national intelligence estimate said the 
continental United States, the 48 States, do not face a threat 
within 15 years. But we happen to come from states that are 
outside the continental limits, and we see a threat within 15 
years.
    Mr. Slocombe. I understand that aspect of the problem.
    Senator Stevens. Does not the nuclear deterrence have 
something to do with reining in that threat?
    Mr. Slocombe. Nuclear deterrence has an important element 
in reining in the threat worldwide including against U.S. 
forces who are deployed.
    Senator Stevens. Well, until we have a capable national 
missile defense, would you recommend that we pursue a policy of 
not having a nuclear deterrence?
    Mr. Slocombe. No.
    Senator Stevens. Thank you, Mr. Chairman.
    Mr. Slocombe. No, I believe that for the foreseeable 
future, we are going to need a deterrent capability to deal 
with a wide range of threats including proliferants. But that 
is not the only thing on which we rely, and there is a role for 
missile defense as well.
    Senator Stevens. Well, Mr. Chairman, let me reengage a 
little bit here. You said there is no reasonable prospect that 
all declared de facto nuclear powers will agree in the near 
term to give up all their nuclear weapons. As long as one such 
State refused to do so, it would be necessary for us to retain 
nuclear force on our own. But I am asking you is that the only 
requirement for us to have a nuclear deterrence?
    Mr. Slocombe. No.
    Senator Stevens. If we have one State that retains nuclear 
force?
    Mr. Slocombe. I believe that as long as one State that is 
known to have nuclear weapons does not agree to give them up, 
the notion of other countries unilaterally, at least of the 
United States--other countries can decide for themselves--the 
notion of the United States unilaterally giving up nuclear 
weapons would not be in our national interest. I am not sure I 
am----
    Senator Stevens. I am trying to understand whether you are 
saying if we have an agreement from those who have nuclear 
power now that they would give up all their nuclear weapons, as 
far as you are concerned, we would have no use for deterrence?
    Mr. Slocombe. No, that is not my view, and I think it is 
not what the statement says.
    Senator Stevens. That is what I understood, and I thank you 
very much. I agree with you.
    Senator Cochran. Mr. Secretary, I understand the 
administration supports a production complex that could help 
ensure the continued safety, reliability, and effectiveness of 
nuclear weapons that you have talked about our needing for 
future deterrent purposes. My question is about the testing of 
these weapons. You mentioned the negotiation, the successful 
negotiation, I think was your word, of the Comprehensive Test 
Ban Treaty. There is a proposal to have a Science-Based 
Stockpile Stewardship and Management program. I think it would 
be managed by the Department of Energy and the Department of 
Defense under a joint arrangement. Do you expect this 
stewardship program is going to fulfil the need to ensure the 
continued safety, reliability, and effectiveness of the nuclear 
weapons that the administration proposes that we maintain? How 
are we going to know that these weapons are reliable if we do 
not test them?
    Mr. Slocombe. First of all, yes, I do anticipate that it 
will meet that objective. That is certainly the purpose of the 
program. As it goes forward, there will be a system in which 
annually the Department of Energy and the Department of Defense 
based on the advice of military and technical experts will have 
to certify that the stockpile is safe and reliable as indeed 
they do today.
    I believe that the Stockpile Stewardship program and things 
which can be done without testing will enable those 
certifications to be made. The certifications, of course, are 
made on a detailed analysis of the condition of the weapons and 
the expected behavior under various conditions and so on. As 
you know, the President has said that if--and let me just read 
the statement--``In the event that I were informed by the 
Secretary of Defense and the Secretary of Energy advised by the 
Nuclear Weapons Council, the directors of DOE's nuclear weapons 
laboratories, and the commander of the U.S. Strategic Command, 
that a high level of confidence in the safety or reliability of 
a nuclear weapon type, which the two secretaries consider to be 
critical to our nuclear deterrent, could no longer be 
certified, I would be prepared in consultation with Congress to 
exercise our supreme national interest rights under the CTBT in 
order to conduct whatever testing might be required.''
    Senator Cochran. The Department of Energy under the Nuclear 
Posture Review is required ``to maintain capability to design, 
fabricate and certify new warheads.'' Some weapons experts have 
stated that any new nuclear weapons design would require 
testing prior to production and deployment. Under that 
circumstance, would you also expect that we would exercise our 
supreme national interest and permit such testing of newly 
designed nuclear warheads?
    Mr. Slocombe. First of all, it is not absolutely clear that 
a newly developed nuclear weapon would require testing. If it 
were the judgment that it was impossible or that we could not 
maintain an adequately reliable stockpile because we had to 
design a new weapon, for example, because of concerns about an 
old one, then the procedure that I outlined would apply. To be 
clear, we maintain the capacity to design new weapons. We do 
some design of potential backups and replacements. Under 
current circumstances, we do not foresee a requirement to 
design new weapons from the ground up, but we will retain that 
capacity, the capacity to do so.
    Senator Cochran. You mentioned Secretary Perry's admonition 
that we should lead and hedge. And I wonder if one of the ways 
that we should follow up Senator Stevens' question, is by 
developing and deploying a national missile defense system?
    Mr. Slocombe. We are developing both a national missile 
defense capability and a variety of theater missile defense 
capabilities, and as I have explained in answer to Senator 
Stevens' question, it is certainly our policy that we will go 
forward with deployment of the theater systems as they become 
available, and that if we believe that we see a threat to which 
the national missile defense is an appropriate response, we 
would be in a position to do that.
    Senator Cochran. Would you agree that ballistic missile 
defense systems could help deter rogue regimes, some of whom 
have limited financial resources, from pursuing a policy of 
ballistic missile development?
    Mr. Slocombe. Yes. It is not the only factor in deterrent. 
Nuclear weapons can be delivered by a variety of devices other 
than ballistic missiles, and indeed to some degree it seems to 
me that a country which has somehow kluged together a limited 
ballistic missile capability and had only a few missiles of 
uncertain reliability might be reluctant to commit what would 
also be a rather limited nuclear arsenal to deliver it that 
way. But I concede that the sign of the effect is certainly the 
way you put it. It is not a perfect deterrent.
    I also just for the record should make clear that what we 
are talking about, what I think everybody is talking about now 
in terms of a national missile defense system, is a missile 
defense against the kind of threat you are describing. That is 
a very limited attack from a rogue State, not a fully developed 
missile attack from a first-class power.
    Senator Cochran. But you did say that you were in favor, 
and the administration was, pursuing the development of a 
national defense system.
    Mr. Slocombe. Oh, yes.
    Senator Cochran. A national ballistic missile defense 
system?
    Mr. Slocombe. Yes, but I think in the whole controversy, 
the whole argument on all sides, has been about developing a 
system which is aimed very much at a limited attack.
    Senator Cochran. OK. Senator Levin, do you have any other 
questions?
    Senator Levin. Well, there are a lot of issues involved in 
the national missile defense debate.
    Mr. Slocombe. Oh yes.
    Senator Levin. One of them, would you not agree, is whether 
or not to make a commitment to deploy that system before the 
technology is developed and before there is an assessment of 
the threat?
    Mr. Slocombe. Absolutely. It is certainly a core part of 
our policy that we will develop a system, we will have 
something which could be developed and therefore we could make 
a decision to move to deployment within a couple of years for 
exactly the reasons you State. We think it would be imprudent 
to go forward to that deployment unless we had much, much 
better evidence than we have now that we faced an actual as 
opposed to a potential threat. And one reason for that is once 
you commit to deployment, you have to commit to a specific 
system. If you can continue development, you can improve the 
technology and have a better system. Also, to the degree you 
know something about the threat you are defending against, you 
are able to design the system more adequately to meet the 
particular threat.
    Senator Levin. And is it also not true that, since one of 
our goals is nuclear reductions, a commitment to deploy a 
system which violates the Anti-Ballistic Missile treaty might, 
in fact, end the possibility of significant reductions because 
the Russians have indicated that those reductions are dependent 
on not having to face defenses which are in violation of that 
ABM treaty?
    Mr. Slocombe. This is another argument they make. We 
believe that, first of all, the development program will be 
consistent with the ABM Treaty.
    Senator Levin. Is this a statement that they have made? 
Forget the argument. But have they not made the statement?
    Mr. Slocombe. Oh, yes. My point is that they have a whole 
long list of arguments they make for why they have not ratified 
the treaty.
    Senator Levin. Excuse me one second, but is it not true 
that they have said specifically that one of the reasons that 
they may not ratify START II is the possibility that we would 
violate an agreement relative to defenses--the ABM Treaty--is 
that not true?
    Mr. Slocombe. Yes, that is true. That is one of many 
arguments that they have made.
    Senator Levin. Thank you, Mr. Chairman.
    Seantor Cochran. Senator Stevens, any further questions of 
this witness? Secretary Slocombe, thank you very much for being 
here and for assisting our Committee in the way that you have.
    Mr. Slocombe. Senator, before I leave, having looked at 
Richard Perle's statement, I am reminded that Dorothy Fosdick 
worked for this Committee for many years.
    Senator Cochran. Yes.
    Mr. Slocombe. And I did not always agree with Dorothy 
Fosdick, but she was a distinguished public servant, and I and 
her many friends in the Department of Defense mourn her loss.
    Senator Cochran. Thank you very much for your thoughtful 
statement.
    Senator Stevens. I might say that having traveled with 
Dickie Lincoln for many times, on many occasions--I know 
Richard Perle has got a comment in there in his statement 
also--she was a wonderful person and worked very closely with 
Senator Jackson when he was Chairman and went on to other 
things with Senator Jackson. I had not known that she had 
passed away, but I agree with you, she was a wonderful asset to 
this Committee.
    Senator Cochran. Thank you, Senator. Thank you very much, 
Mr. Secretary.
    Mr. Slocombe. Thank you.
    [The prepared statement of Mr. Slocombe follows:]
                PREPARED STATEMENT OF SECRETARY SLOCOMBE
Introduction
    Mr. Chairman, I am delighted to meet with this subcommittee today 
to discuss a topic of great importance to the American people and to 
our security and that of the world as a whole: nuclear weapons and 
deterrence.
    Nuclear deterrence has been the subject of much debate over the 
decades, and, appropriately, this debate has been resumed after the end 
of the Cold War. Most recently, the nuclear question has been given 
prominence by respected individuals and committees who advocate a 
radical change--setting as a policy goal the complete abolition of 
nuclear weapons.
    Indeed, such calls underscore the continuing American and global 
interest in a deliberate process to further reduce--and ultimately 
eliminate--nuclear weapons. The U.S. has embraced this commitment for 
many years. When the Nuclear Nonproliferation Treaty was signed in 
1968, we signed on to Article VI of the NPT, which calls for the 
parties to undertake ``to pursue negotiations in good faith relating to 
cessation of the nuclear arms race at an early date and to nuclear 
disarmament, and on a treaty on general and complete disarmament under 
strict and effective international control.'' In 1995, when the NPT was 
indefinitely extended, we reiterated this pledge to work toward the 
complete elimination of nuclear weapons in the context of general and 
complete disarmament. President Clinton, in a speech to the United 
Nations this past September, said he looks forward to a new century 
``in which the roles and risks of nuclear weapons can be further 
reduced, and ultimately eliminated.''
    The United States has made remarkable progress in fulfilling our 
NPT Article VI commitment. The nuclear arms race has, in fact, been 
halted. The United States has been reducing its nuclear stockpile in a 
consistent fashion through both its unilateral and bilateral 
initiatives. For example, the 1987 Treaty on Intermediate-Range Nuclear 
Forces eliminated an entire category of U.S. and Russian nuclear 
weapons. In 1991 we and our NATO allies decided to retire all nuclear 
artillery shells, all nuclear warheads for short-range ballistic 
missiles, and all naval nuclear anti-submarine warfare weapons. None of 
these weapons is deployed today, and the majority of them have been 
destroyed.
    Over the past four years, the Clinton Administration has worked 
hard to secure detargeting of U.S. and Russian strategic missiles; the 
entry into force of the START I Treaty; the complete denuclearization 
of Ukraine, Belarus and Kazakstan; the indefinite extension of the NPT; 
Senate ratification of START II; and negotiation of the Comprehensive 
Nuclear Test Ban Treaty. And we have made clear that, once START II 
enters into force, we are prepared to work on further reductions in 
strategic nuclear arms as well as limiting and monitoring nuclear 
warheads and materials. Thus, lifting the threat of nuclear weapons 
destruction and limiting their spread has been and remains at the top 
of President Clinton's foreign policy agenda.
    However, we are not yet at the point where we can eliminate our 
nuclear weapons.
    For the foreseeable future, we will continue to need a reliable and 
flexible nuclear deterrent--survivable against the most aggressive 
attack, under highly confident constitutional command and control, and 
assured in its safety against both accident and unauthorized use.
    We will need such a force because nuclear deterrence--far from 
being made wholly obsolete--remains an essential ultimate assurance 
against the gravest of threats. A key conclusion of the 
Administration's National Security Strategy is that the United States 
will retain strategic nuclear forces sufficient to deter any future 
hostile foreign leadership with access to strategic nuclear forces from 
acting against our vital interests and to convince it that seeking a 
nuclear advantage would be futile.
    To summarize the argument I will develop in more detail:

    <bullet> We have already made dramatic steps in reducing U.S., 
Russian, and other, nuclear arsenals and potentials. We have also taken 
important steps to ensure safety, security--and non-diversion.
    <bullet> We can and should do more on both the reduction and 
safety/security fronts.
    <bullet> Nonetheless, nuclear weapons remain essential to deter 
against the gravest threats, actual and foreseeable.
    <bullet> Abolition, if understood as a near-term policy, rather 
than, as President Clinton has stated, an ultimate goal, is not a wise 
and surely not a feasible focus of policy.
    <bullet> Therefore, assuring the reliability of our nuclear forces 
and the nuclear stockpile remains a high national security priority.

    Let me turn to the rationale behind our nuclear forces, how and why 
we have been able to reduce our dependence on them in recent years, and 
then address why abolition in the near future is not a good idea. I 
should note that while there is a good deal that cannot be said in an 
unclassified session, the broad outlines of our nuclear policies have 
been available for years.
Nuclear Deterrence: The Cold War Experience
    Because the past has lessons for the future, let me review briefly 
how our nuclear forces have strengthened our security. First, they 
provided a principal means by which the United States deterred 
conventional and nuclear aggression by the Soviet Union and Warsaw Pact 
against itself and its allies. Second, the extension of the U.S. 
nuclear umbrella allowed many of our allies to forego their own nuclear 
weapons, even though they had the technological know-how to develop 
them. Third, although the East-West competition spilled over into 
numerous regional conflicts during the Cold War, the nuclear 
capabilities possessed by the superpowers instilled caution, lest the 
United States and the Soviet Union be brought into direct, and possibly 
nuclear, confrontation.
    It is a remarkable fact that for almost half a century, the U.S. 
and its allies faced the USSR and its coerced auxiliaries in a division 
over ideology, power, culture, and the very definition of man, the 
state, and the world, and did so armed to the greatest extent huge 
sacrifice would afford, and yet did not fight a large-scale war. No one 
can say for sure why that success was achieved for long enough for 
Communism to collapse of its own internal weakness. But can anyone 
really doubt that nuclear weapons had a role?
    Some argued, even in the Cold War, that the danger of a nuclear 
holocaust was so great that the risk of possessing these weapons far 
outweighed their benefits. I do not agree. Nuclear deterrence helped 
buy us time, time for internal forces of upheaval and decay to rend the 
Soviet Union and the Warsaw Pact and bring about the end of the Cold 
War.
The U.S. nuclear deterrent has been transformed in the post Cold War 
        period
    But the Cold War is over, and it is important to recognize the 
great degree to which our nuclear deterrent and indeed that of Russia 
has been transformed from that period. The role of nuclear weapons in 
our defense posture has diminished--we welcome this trend and expect it 
will continue in the future. U.S. spending on strategic forces has 
declined dramatically from Cold War levels--from 24 percent of the 
total DoD budget in the mid-1960s, to 7 percent in 1991, to less than 3 
percent today. Moreover, we currently have no procurement programs for 
a next generation bomber, ICBM, SLBM or strategic submarine. The 
programs we do have are designed to sustain the effectiveness, safety 
and reliability of remaining forces, and to ensure the continued high 
quality of our people.
    Russian spending on strategic forces has also declined 
substantially. The Russian Federation has some strategic systems under 
development--for example, a new single warhead ICBM (the SS-X-27) and a 
new strategic ballistic missile submarine but these programs are fewer 
in number (and their development pace slower) than at the height of the 
Cold War. These systems will replace deployed systems that will reach 
the end of their service lives over the next decade; or that would be 
eliminated under START II.
    Stabilizing agreed reductions in nuclear forces have been, and 
continue to be, a primary objective of the United States. The U.S. and 
Russia have taken great strides in this regard in recent years. START I 
will reduce each side's deployed strategic weapons from well over 
10,000 to 6,000 accountable weapons. Russia, like the U.S., is actually 
somewhat ahead of schedule in meeting the START I reduction 
requirements. START II, when it is ratified by the Russian Duma and 
enters into force, will further reduce to 3,000-3,500 each side's 
weapons. Following START II's entry into force, we are prepared to 
engage in negotiations further reducing strategic nuclear forces.
    Meanwhile, the U.S. has unilaterally reduced its non-strategic 
nuclear weapons (NSNF) to one-tenth of Cold War levels. While Russia 
pledged in 1991 to make significant cuts in its non-strategic nuclear 
forces and has reduced its operational NSNF substantially, it has made 
far less progress thus far than the U.S., and the Russian non-strategic 
arsenal (deployed and stockpiled) is probably about ten times as large 
as ours.
    In addition to START reductions, there have been qualitative 
changes in our nuclear arsenal. There used to be nuclear land-mines, 
artillery, infantry weapons, surface-to-surface missiles, surface-to-
air weapons, air-to-air weapons, depth-charges, and torpedoes; all 
these have gone. In 1991 and 1992, the U.S. unilaterally eliminated 
several nuclear weapons systems (e.g., Lance, FB-111, SRAM-A), halted a 
number of planned or on-going development programs (e.g., Small ICBM, 
Peacekeeper Rail Garrison, Lance Follow-on), took nuclear bombers off 
alert, and removed from alert, well ahead of the required schedule, 
those ICBMs and strategic missile submarines planned for elimination 
under START I. In 1994, further reflecting the changed international 
situation, the U.S. and Russia agreed to no longer target their 
ballistic missiles against each other on a day-to-day basis.
    Nor is the non-proliferation picture all bleak. No nation has 
openly joined the nuclear club since China in 1964. There are only 
three unacknowledged nuclear powers. South Africa has abandoned its 
capability, as Ukraine, Belarus and Kazakstan have theirs. Argentina 
and Brazil have renounced the option, as Sweden and Canada did long 
ago. North Korea's program is frozen. Iraq is under a special and 
highly intrusive UNSCOM regime. The vast majority of countries support 
a permanent Non-Proliferation Treaty--mostly a benefit which non-
nuclear countries confer on one another, not a favor they do for the 
nuclear powers. We have negotiated an end to nuclear testing.
Why nuclear deterrence?
    The question, however, is rightly asked: Granted all these 
reductions, with the end of the Cold War, why do we continue to 
maintain a nuclear deterrent at all?
    In September 1994, the Clinton Administration answered this 
question in its Nuclear Posture Review, the first comprehensive post-
Cold War review of U.S. nuclear policy. The NPR recognized that, with 
the dissolution of the Warsaw Pact, the demise of the Soviet Union, and 
the embarkation of Russia on the road to democracy and a free market 
economy, the strategic environment has been transformed. Conventional 
forces, therefore, could and should assume a larger share of the 
deterrent role. We concluded, nonetheless, that nuclear weapons 
continue to play a critical role in deterring aggression against the 
U.S., its overseas forces, its allies and friends. This conclusion is 
entirely consistent with NATO's Strategic Concept, adopted in 1991 
after the end of the Cold War, which states that the fundamental 
purpose of NATO's nuclear forces is to preserve peace and prevent 
coercion and any kind of war.
    Why did we reach this conclusion? Most importantly, because the 
positive changes in the international environment are far from 
irreversible.
    There are broadly, two classes of threats to which nuclear weapons 
remain important as deterrents.
    First, Russia has made great progress and we do not regard it as a 
potential military threat under its present, or any reasonably 
foreseeable government. We wisely invest substantially in the 
Cooperative Threat Reduction program, in future arms control--and we 
share with the current Russian leadership (and most of their opponents) 
a determination not to let our relations return to a state of hostility 
in which these weapons would be a threat.
    All that said, Russia continues to possess substantial strategic 
forces and an even larger stockpile of tactical nuclear weapons. And 
because of deterioration in its conventional military capabilities, 
Russia may be placing even more importance and reliance on its nuclear 
forces. We cannot be so certain of future Russian politics as to ignore 
the possibility that we would need again to deter the Russian nuclear 
force.
    Second, even if we could ignore the Russian nuclear arsenal 
entirely, there are unfortunately a range of other potential threats to 
which nuclear weapons are a deterrent. One cannot survey the list of 
rogue states with potential WMD programs and conclude otherwise. I do 
not, by the way, regard such states as undeterrable, either in the 
long-run sense of the incentives to acquire WMD capability, or the 
short-run sense of incentives to use such a capability. Indeed, the 
knowledge that the U.S. has a powerful and ready nuclear capability is, 
I believe, a significant deterrent to proliferators to even contemplate 
the use of WMD. That this is so will, I think, be clear if one thinks 
about the proliferation incentives that would be presented to the 
Kaddafis and Kim-Chong-Ils of the world if the U.S. did not have a 
reliable and flexible nuclear capability.
    In view of this, it would be irresponsible to dismantle the well-
established--and much reduced--system of deterrence before new and 
reliable systems for preserving stability are in place.
Argument: Our weapons cause others to seek their own.
    What about the argument that our weapons promote proliferation, 
that states seek to acquire nuclear weapons in response to possession 
by nuclear weapons states? A more compelling case to me is that 
proliferant states acquire nuclear weapons not because we have them but 
for reasons of their own--to counter regional adversaries, to further 
regional ambitions, and to enhance their status among their neighbors. 
And, insofar as our nuclear capability is an issue, if a successful 
proliferator knew he would not face a nuclear response by the U.S., it 
would scarcely reduce his incentives to acquire a WMD capability. The 
incentives to proliferate would hardly be reduced if a rogue state 
would, through a successful nuclear weapons program, acquire a nuclear 
monopoly, not a token capability facing far stronger forces possessed 
by the U.S. and other world powers.
    Some people claim that once proliferation does occur, U.S. nuclear 
forces lack any utility in deterring rogue leaders from using nuclear 
weapons because those leaders will not regard the costs, even of 
nuclear retaliation, as sufficiently great. But experience suggests 
that few dictators are indifferent to the preservation of key 
instruments of state control, or to the survival of their own regimes 
(or, indeed, their own persons). Thus, I believe the reverse is true--
our nuclear capabilities are more likely to give pause to potential 
rogue proliferants than encourage them.
    The important role of U.S. nuclear capability in preventing the 
spread of nuclear weapons often goes unnoticed. The extension of a 
credible U.S. nuclear deterrent to allies has been an important 
nonproliferation tool. It has removed incentives for key allies, in a 
still dangerous world, to develop and deploy their own nuclear forces, 
as many are technically capable of doing. Indeed, our strong security 
relationships have probably played as great a role in nonproliferation 
over the past 40 years as has the NPT.
Argument: Nuclear weapons should be eliminated because they are 
        dangerous and unsafe.
    Of course, nuclear weapons are dangerous; they contain high 
explosives and fissile material. But they are not unsafe in the sense 
that they are susceptible to accidental or unauthorized use. Our 
nuclear weapons meet the highest standards of safety, security, and 
responsible custodianship. Moreover, we place high priority on 
maintaining and improving stockpile safety. Our nuclear safety record 
is extraordinary. Although a few accidents involving nuclear weapons 
have occurred, no accident has ever resulted in a nuclear detonation 
and the last accident of any kind was almost twenty years ago.
    We believe the likelihood of accidents has been dramatically 
reduced since the end of the Cold War. Our strategic bombers are no 
longer on alert; our surface ships and attack submarines no longer 
carry nuclear weapons. The Army and Marines have eliminated their 
nuclear weapons. Older weapons with less modern safety features have 
been removed from the stockpile. Technical safety mechanisms have been 
improved. Detargetting means that the missiles, even if somehow 
launched in error, would no longer be aimed at targets in Russia. The 
number of nuclear weapon storage sites have been decreased by 75 
percent and weapons consolidated. As a result of all these changes our 
weapons are much less exposed to accident environments.
    In addition, nuclear weapons security has been a key element of 
DoD's Cooperative Threat Reduction Program with Russia from the 
beginning. A total of up to $101 million in CTR assistance has been 
made available under these CTR agreements for projects to enhance 
security of nuclear weapons under MoD control. In addition to 
agreements already signed on armored blankets and security upgrades to 
nuclear weapons railcars, other nuclear weapons transportation and 
storage security projects are underway or being developed.
    On balance, the safety risks of maintaining a smaller nuclear 
arsenal are far outweighed by the security--and non-proliferation--
benefits that we continue to derive from nuclear deterrence.
The Bottom Line on Abolition
    I would summarize the case for retaining nuclear weapons for the 
foreseeable future as follows:

    <bullet> There is no reasonable prospect that all the declared and 
de facto nuclear powers will agree in the near term to give up all 
their nuclear weapons. And as long as one such state refuses to do so, 
it will be necessary for us to retain a nuclear force of our own.
    <bullet> If the nuclear powers were, nevertheless, to accept 
abolition, then we would require--and the Congress would rightly 
demand--a verification regime of extraordinary rigor and intrusiveness. 
This would have to go far beyond any currently in existence or even 
under contemplation. It would have to include not merely a system of 
verification, but what the ``international generals statement'' calls 
``an agreed procedure for forcible international intervention and 
interruption of current efforts in a certain and timely fashion.'' The 
difficulties with setting up such a system under current world 
conditions are obvious. Such a regime would have to continue to be 
effective in the midst of a prolonged and grave crisis--even during a 
war--between potentially nuclear-capable powers. For in such a crisis, 
the first question for all involved would be that of whether--or when--
to start a clandestine nuclear program. For the knowledge of how to 
build nuclear weapons cannot be abolished.
    <bullet> Finally, we who are charged with responsibility for 
national security and national defense must recall that we are not only 
seeking to avert nuclear war--we are seeking to avert major 
conventional war as well. As I indicated earlier, during the Cold War 
nuclear weapons played a stabilizing role in that they made the resort 
to military force less likely. The world is still heavily armed with 
advanced conventional weapons and will increasingly be so armed with 
weapons of mass destruction. The existence of nuclear weapons continues 
to serve as a damper on the resort to the use of force.
Need to Maintain Safe and Reliable Nuclear Weapons Stockpile
    Because nuclear deterrence is to remain part of our national 
security policy for the foreseeable future, the U.S. nuclear deterrent 
must remain credible--weapon systems must be effective and their 
warheads safe and reliable. The quality, reliability, and effectiveness 
of the forces themselves (including their communication and command 
systems) and the people who operate them, is one of our top priorities 
in DoD. With respect to the nuclear devices themselves, DoE has an 
aggressive, well-funded, program designed to ensure our weapons remain 
safe and reliable in the absence of nuclear testing. The Department of 
Defense fully supports this program. Today, we have high confidence in 
the safety and reliability of our nuclear deterrent force; the 
stockpile stewardship and management program is designed to provide the 
tools to assure this in the future.
Summary
    Our objective is a safe, stable world. But we must develop our 
national security policy with the understanding that nuclear weapons 
and the underlying technical knowledge cannot be disinvented whether or 
not the U.S. retains its weapons. In this connection, the U.S. will 
continue to lead the way to a safer world through the deep reductions 
in nuclear forces undertaken in START and through Nunn-Lugar 
cooperative threat reduction and other actions. At the same time, we 
will maintain a smaller nuclear force as a ``hedge'' against a future 
that is uncertain and in a world in which substantial nuclear arsenals 
remain.
    Successive U.S. administrations have embraced the objective of 
nuclear disarmament as our ultimate goal. Two years ago at the NPT 
Review and Extension Conference, the U.S. reaffirmed its commitment to 
this goal in the Conference's statement of principles and objectives. 
In an uncertain world, however, the path to this goal is not clearly 
marked. What is clear is that the ultimate goal will be reached only 
through realistic moves forward, as genuine security permits, with each 
step building on those before it.
    We will continue to strive to make the world a safer place for our 
children and grandchildren. In this regard, the United States is 
committed to Article VI of the NPT which calls for the complete 
elimination of nuclear weapons in the context of general and complete 
disarmament. Until these conditions are realized, however, I believe 
that nuclear weapons will continue to fulfill an essential role in 
meeting our deterrence requirements and assuring our nonproliferation 
objectives.
    A further problem is that among some military colleagues, there is 
a deeply-felt concern that by urging nuclear arsenal reduction we are 
somehow denigrating the important--indeed vitally important--role that 
these nuclear-armed military forces successfully served during the Cold 
War. It would be a regrettable mistake to be drawn into such a view. 
During that time our very survival was at stake. Our nuclear weapons 
served their Cold War purpose, and served successfully. Security was 
successfully preserved, and war with the Soviets was successfully 
avoided. I at least, and many others who served in the military 
forces--including notably our highly-trained, highly-skilled nuclear 
forces--have no doubt that our nuclear forces played a central, 
crucial, indispensable role in that process. I myself was drawn into 
the argument ``Better Red than dead.'' My response was always ``Better 
neither than either,'' and that in fact was the outcome, thanks in 
crucial part to our highly capable nuclear weapons and forces.
    But the Cold War is gone. And now it is time to look at the new 
possibilities and new era.

    Senator Cochran. Let me invite our other witnesses to come 
forward now, General Goodpaster and Richard Perle. I mentioned 
in my opening statement something about the background and 
qualifications of our distinguished witnesses who will make up 
our concluding panel for today's hearing. We are very pleased 
and honored that both of these gentlemen would be able to come 
today and present their views and comments to the Subcommittee 
on the subject that we have under review.
    General Andrew Goodpaster's public service is well known 
and has spanned 7 decades. We congratulate you on your 
distinguished service to the United States, and we welcome you 
to the hearing. You may proceed.

TESTIMONY OF GENERAL ANDREW J. GOODPASTER, U.S. ARMY (RETIRED), 
      CO-CHAIR, THE ATLANTIC COUNCIL OF THE UNITED STATES

    General Goodpaster. Thank you very much, Mr. Chairman. 
Before I begin, I might say that in addition to my service 
before I retired from the military, I still have some 
connection with nuclear affairs in that I serve as a member of 
the President's Council of the University of California which 
has oversight over the two weapons laboratories, Los Alamos and 
Livermore, in addition to Berkeley Laboratory. My statement 
today is a personal statement and in no way reflects views that 
may be held by any of those organizations.
    But I welcome the opportunity to present these views. I 
think the issue is timely with regard to shaping future 
programs, and it is very important to future security. I 
proceed from two fundamental propositions. First, that American 
security should be the basis for our nuclear weapons policies 
and actions, and, second, that the central role for nuclear 
weapons should be to limit and reduce the nuclear danger to 
American security.
    What I would like to do, Mr. Chairman, is make my full 
statement available to the Committee and just give highlights 
in the interest of time.
    Senator Cochran. We appreciate that, General, and your full 
statement will be made a part of the record without objection.
    General Goodpaster. On the basis I just stated, I think 
that the future of nuclear deterrence should be seen as one of 
three components of a coordinated three-pronged effort. The 
first, cooperative nuclear threat reduction, most importantly 
between Russia and the United States. The second, sustained 
comprehensive nonproliferation and counter-proliferation 
efforts. And the third, nuclear deterrence focused on 
preventing use or threat of use of nuclear weapons by others 
against us or our allies.
    This must be a sustained and coordinated effort, and 
American leadership will be essential if this is to be moved 
forward. Now the motivation for such an effort is clear, in my 
opinion. And I quote from President Eisenhower, who had a 
talent for getting to the heart of issues of this kind, that 
nuclear weapons are the only thing that can destroy the United 
States. And second, as many have said, the Cold War is indeed 
over, and we have an opportunity to realign military policy and 
posture to consolidate a major enhancement of American 
security, which has now become possible. Secretary Perry said 
that fewer weapons of mass destruction in fewer hands makes the 
United States and the world safer, and I very much agree.
    I would like to insert both in my full statement and to 
read at this time a concern that has been expressed by some of 
my senior military colleagues, that by urging nuclear arsenal 
reduction, we are somehow denigrating the important, vitally 
important role that these nuclear-armed military forces 
successfully served during the Cold War. It would be a 
regrettable mistake, in my view, to be drawn into such a view. 
During that time, our very survival was at stake. Our nuclear 
weapons served their Cold War purpose and served it well. I 
might say, as NATO's Commander-in-Chief, I had some 7,000 
nuclear weapons under my responsibility, and they played a 
vital part, in my opinion, in maintaining the peace in Europe 
that we have enjoyed since World War II.
    Security was successfully preserved. War with the Soviets 
was successfully avoided. I at least and many others who served 
in the military forces, including notably our highly trained, 
highly skilled nuclear forces, have no doubt that our nuclear 
forces played a central, crucial, indispensable role in that 
process. I might say I myself was drawn on many occasions into 
the argument ``better Red than dead.'' My rejoinder was always 
``Better neither than either,'' and that, in fact, was the 
outcome thanks in crucial part to our highly capable nuclear 
weapons and nuclear forces. But the Cold War is gone, and now 
it is time to look at the new possibilities and the new 
opportunities of this new era.
    I think we must make a very clear distinction between 
eliminating most nuclear weapons and eliminating all of them. 
No one now knows whether, when, how to eliminate all in a 
prudent way. This can be, as our country has stated, our 
ultimate goal, but it can only be an ultimate goal at this 
time. On the other hand, it should be the beacon toward which 
we work. At the same time, we do know how to eliminate most 
nuclear weapons, and it will be in our interest to do so, and 
that really is my proposal. That effort is realistic. It will 
be beneficial to American security, and it will be worth the 
time, the hard work, that it will demand for a long time to 
come in order to make a prudent course of action.
    It will take 10 years or more to get down to the START II 
level of nuclear weapons. We could eliminate nuclear weapons at 
the rate of about 2,000 a year, which was the rate at which 
they were built. And during that time, we can see how well the 
Nonproliferation Treaty, the Comprehensive Test Ban Treaty 
succeed, and how the world security environment develops, and 
how far we can get with the Cooperative Nuclear Threat 
Reduction programs. And at the end of that time or as that time 
goes along, we should be in much better position to assess the 
practical possibility and the prudence of attempts to eliminate 
all. I myself regard the argument over complete abolition at 
this time as diversionary and to a degree counterproductive. As 
I say, no one knows whether, when, how to eliminate all nuclear 
weapons in a prudent way.
    What we can do now is proceed with cooperative nuclear 
threat reduction and that requires in the first instance the 
safeguarded mutual downsizing of American and Russian nuclear 
arsenals, and that should be our top priority. We should move 
the START II ratification by the Duma along, and already 
discussed has been the idea of developing a statement of 
principles for START III to come into effect, and the 
negotiation for START III to begin when START II has been 
ratified. That should provide impetus to the Duma ratification 
of START II.
    And there could be an agreement that there would be no 
adverse change in deployments of nuclear weapons during that 
process of negotiation, and that would meet another of the 
concerns expressed by the Russians concerning the enlargement 
of NATO nuclear deployments. Along with this, we should 
continue reductions on a five-nation basis as the American and 
Russian reductions proceed to what I term the lowest verifiable 
level consistent with stable security to which agreed 
commitment can be reached. I myself have proposed for 
consideration a level of 100 to 200 weapons. That sounds like a 
small number against the thousands and tens of thousands that 
we have had, but it is not a small number when you think of 
Hiroshima or Nagasaki or the damage at Chernobyl. I have found 
that the Russians are very conscious now of what damage a 
single weapon can do, and that some of the discussion about 
exchanges of very large numbers of weapons is, as Eisenhower 
used to say, it is just a form of insanity.
    I mention that much hard work has to be done. It needs to 
be done step by step in setting policy, in formulating 
proposals, in carrying out negotiation, in restructuring our 
forces, in new targeting plans and doctrines, in stockpile 
management, in verification procedures. The Nunn-Lugar 
initiative, the Cooperative Threat Reduction initiative, has 
been tremendously valuable and should be sustained and 
extended.
    The second of the three-prongs that I mentioned is 
nonproliferation and counter-proliferation. I spell that out in 
a bit of detail in my full remarks. We start from the 
Nonproliferation Treaty indefinitely extended in 1995. That is 
the cornerstone, and it is reinforced by the Comprehensive Test 
Ban Treaty. There is a well-defined array of measures, both 
national and international, by which nonproliferation and 
counter-proliferation can be supported and extended. They 
include detection, use of our intelligence means to know at an 
early time what anyone else is doing, particularly what they 
may be doing to acquire the weapons materials out of which the 
weapons are made. That is the most demanding requirement that a 
proliferant will have to meet either through developing the 
materials himself or acquiring them from some other source, and 
that remains extremely important. That is the second element, 
which is to deny his access to materials of that kind and the 
equipment and the manufacturing capabilities that would enable 
him to build these weapons, to do that so far as possible.
    To dissuade through incentives and disincentives is next, 
and there we can draw upon the experience of Brazil and 
Argentina and South Africa among others in deciding not to go 
that route. But then if nevertheless he develops the weapons, 
to deter him from their use, and you deter through the 
capability to punish him quickly and in devastating fashion and 
to defeat and destroy, destroy his capability, decisively and 
devastatingly.
    No single one of these would be sufficient. Together they 
are a powerful contribution to American security. And those two 
prongs of policy now, I think, tell us what our nuclear 
deterrence policy should be. The basis for it is that so long 
as nuclear weapons exist or could be produced, the United 
States must maintain its own nuclear weapons arsenal that is 
safe, reliable, operationally effective, and adequate in types 
and numbers. Two roles for those weapons are involved. The 
first is to assure that no use or threatened use of nuclear 
weapons against us or our allies would occur by anybody that 
has those weapons, and the second, as I mentioned earlier, is 
to deter nations that are now non-nuclear from building or 
otherwise acquiring them.
    I myself reject giving primary status in the overall role 
of our nuclear deterrent to other roles such as against 
chemical and biological weapons use or threat. Our primary 
reliance there should be on our conventional capability, but we 
will, in fact, have nuclear weapons for many, many years, and 
there will be what some have called an existential deterrent 
that they provide against people using or threatening chemical 
and biological attack against us if indeed we ever had to make 
use of those nuclear weapons.
    More important in my mind is that we should not through 
reliance on nuclear weapons use that as an excuse for failing 
to provide the kind of conventional capability that we ought to 
have to respond to chemical or biological threat.
    Other uses have also been argued, for example that if you 
remove the nuclear weapons or reduce to a low level, you will 
be making the world safe for conventional war. It is sometimes 
said that our nuclear weapons should have the broad role of war 
prevention. That, I think, is an issue that requires the 
judgment of our political leaders. Does the added contribution 
of going beyond preventing the use of nuclear weapons to 
preventing all forms of conflict justify a continuing reliance 
on nuclear weapons that can destroy the United States? It is a 
hard issue, but that is an issue that will need to be 
considered and decided.
    A third argument is that this could cause Germany and Japan 
to go nuclear. I think that all of these if they are closely 
examined will be found to be unpersuasive. The constraints 
against Germany and Japan going nuclear are very great. First 
of all, there is no need for them, no foreseeable need for them 
to do it, and, second, if that were ever to become a serious 
possibility, it would be destabilizing in terms of the security 
that they both now enjoy.
    Out of this comes the requirement for Stockpile Stewardship 
and Management, which involves, as earlier stated, 
responsibilities of both the Department of Energy and the 
Department of Defense. The Science-Based Stockpile Stewardship 
program is of very great importance in that regard. As our 
weapons age, there will not now be the capability of testing 
and this will be very demanding of our nuclear laboratories. A 
second point, our laboratories are called upon to maintain the 
capability, the capacity, for producing new weapons. The 
designers, those with experience, are like many of the rest of 
us, beginning to age a bit, like the weapons themselves, and 
this confronts the laboratories with another problem. So the 
importance of maintaining that Science-Based Stewardship 
program can hardly be overemphasized.
    On the military side, there are comparable needs. As our 
nuclear posture changes with continuing weapons reductions of 
the kinds contemplated, there will be a need, as I mentioned, 
few new targeting doctrines, new alert provisions, new 
operational plans. All will need to be developed and supported 
at proper levels of effectiveness through training, through 
force modernization, through intelligence activities, 
particularly concerning potential proliferants, as well as 
tight coupling to the higher decision-making and the policy 
echelons of our government.
    These are some of the principal prerequisites to 
maintaining our nuclear deterrent at the effectiveness 
required, providing assurance that the weapons we possess are 
at all times safe, reliable, and adequate to deter or respond 
to breakout or clandestine violations of agreements that other 
nations may have made with us on the levels and types of 
weapons to be retained, or to take account of an adverse turn 
in the major nations' relationships. Those are capabilities 
that we should have.
    I would like to conclude simply by commenting that this 
poses a special challenge. It is the challenge of doing two 
things at once: downsizing while maintaining effectiveness, but 
that is simply comparable to the challenge that we face for our 
armed forces as a whole at this time, and that is being met I 
think very satisfactorily. The real point is that when you 
apply this in the nuclear area, you have to realize that this 
area has a special impact on American security so it becomes 
all the more important that we carry out the downsizing and 
maintain the effectiveness at the same time in this area. Thank 
you for the opportunity to present these views, Mr. Chairman.
    Senator Cochran. Thank you, General Goodpaster. I hope it 
will not embarrass you for me to wish you a happy birthday. I 
know that February 12 is your birthday, and we congratulate 
you.
    General Goodpaster. Thank you very much.
    Senator Cochran. And wish you many more.
    General Goodpaster. I share it with two men for whom I have 
the highest regard: President Lincoln and General Omar Bradley.
    Senator Cochran. That is pretty good company.
    General Goodpaster. I think so.
    [The prepared statement of General Goodpaster follows:]
           PREPARED STATEMENT OF GENERAL ANDREW J. GOODPASTER
    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to present my views on the subject 
``The Future of Nuclear Deterrence.'' It is an issue that ranks in the 
highest order of importance for American security (and that of others) 
in the coming century. This hearing seems to me most timely. In that 
regard, I myself have recently joined in a public statement bearing on 
this matter with Gen. Lee Butler, U.S. Air Force (Ret.), former 
Commander-in-Chief of the Strategic Air Command and the U.S. Strategic 
Command, in an initiative with which some sixty or more retired senior 
military officers around the world are also associated.
    My approach with regard to the whole nuclear weapons issue is quite 
simple: It is that U.S. security, viewed in its fundamentals, should be 
the governing priority that guides U.S. policy and action in this 
field. On this basis, the future of nuclear deterrence should be seen 
as one key element in a coordinated three-fold U.S. effort serving this 
objective, consisting of these main components:

    <bullet> Cooperative nuclear threat reduction, most importantly 
between Russia and the U.S.;
    <bullet> Non-proliferation efforts aimed at preventing the spread 
of nuclear weapons to additional nations or other sources of violence;
    <bullet> Nuclear deterrence focussed on preventing the use or 
threat of use of nuclear weapons by others against the U.S. or U.S. 
allies.

    A great many specific actions have been taken, and more are 
underway to carry these efforts forward. They should be sustained, 
focussed and reinforced.
    But before discussing each of them in turn, I would like to offer a 
few preliminary observations.
    To do what needs to be done means giving high priority to the issue 
and sustained commitment to the effort, amidst a vast number of other 
demands. This will not be easy. Nor can such action be taken for 
granted, despite the merits of the case, when matters that seem urgent 
at any moment are in an inherent battle for priority with those that 
are often more fundamentally important. It will take firm top-level 
decision and determined follow-up leadership over many years to move 
the needed nuclear policies and action forward.
    But this can and must be done. Two considerations fundamental to 
security interests and possibilities should now shape the nuclear 
future:

    <bullet> First, as so often emphasized by President Eisenhower (who 
had a talent for getting to the heart of such questions) nuclear 
weapons are the only thing that can destroy the United States of 
America.
    <bullet> Second, the Cold War is over and unlikely to return; there 
is opportunity if we act on it to re-orient our policies accordingly.

    We therefore stand at a time that offers us a real possibility of 
dealing with the nuclear weapons issue in a way that will greatly 
reduce the risks they pose to U.S. security. To that end, and because 
of the enormous, unique power of destruction that is concentrated in 
nuclear weapons, it is my strong recommendation that we set as our 
over-riding goal the reduction of this danger to U.S. security. To the 
extent the existence of these weapons supports other purposes, those 
consequences should be treated as secondary, and not allowed to 
interfere with that primary aim. To be specific, nuclear weapons should 
not be drawn into a game of balance-of-power politics. They should not 
be used for political purposes to further inter-state interests beyond 
reducing the nuclear danger. As stated, these weapons are different 
from others in the dangers to U.S. national security they represent.
    The view I am presenting today is that it is in our security 
interest (and that of others, including our allies) to go as far and as 
fast as we prudently can toward elimination of these weapons. I share 
the view recently expressed by former Secretary of Defense William 
Perry that ``fewer weapons of mass destruction in fewer hands makes 
America and the world safer.''
    The elimination of most is realistic, beneficial in terms of 
enhanced security and well worth the time, attention and best efforts 
it will demand from us for a long time to come. The elimination of all, 
is for the present still well beyond our grasp; no one today knows 
whether, when or how it can prudently be done. But in practical terms 
the United States is far from needing to make that decision. Ten years 
or more will be required to dismantle the weapons already marked for 
elimination--at 2,000 or so a year, roughly the same rate at which we 
and the Soviets were each able to build them during the Cold War. 
During the time it will take we can see how well the Non-Proliferation 
Treaty succeeds, what is done with the Comprehensive Test Ban Treaty, 
and how the world security environment develops, particularly as among 
the major nations. During that time we should make sure that the U.S. 
nuclear weapons arsenal is safe, reliable and adequate to our needs.
Cooperative Nuclear Threat Reduction
    The safeguarded mutual downsizing of Russian and U.S. nuclear 
weapons arsenals should be pursued at high priority in the coming 
years. To this end, both on its own merits and for its contribution to 
nuclear threat reduction, the building of a positive security 
relationship with Russia should take its place in the very top rank of 
our foreign policy and security policy efforts. Only the parallel 
efforts to build a positive security relationship with China, and to 
keep healthy and strong our security relationships with our allies are 
of comparable importance. These are the ``blue chips'', as I view them, 
of U.S. national interests. The vast range and on-going stream of other 
U.S. foreign interests, while significant, should be kept subordinate 
to these over-riding concerns. For the U.S. and Russia, the simple 
proposition is that in order to reduce to a minimum the number of 
nuclear weapons held by the other party, it is well worth reducing to 
the same level ourselves.
    START II ratification, still stalled in the Russian Duma, should be 
moved off dead center, bringing the numbers of strategic weapons in 
Russia and the United States down to the 3,000-3,500 the treaty 
prescribes. A specific proposal with which I myself have been 
associated and which is beginning to attract wider interest and 
support, is to join with the Russians in preparing a ``Statement of 
Principles'' for START III negotiations (as was done for START II) to 
come into effect when the Duma ratifies START II. This action can 
respond to Russian interest in going on down from the START II level of 
3,000-3,500 weapons to a new level of 2,000--a step beneficial to both 
Russia and the United States, and a useful step en route to further 
reductions. Present weapons deployments in Europe could be maintained 
without change as negotiations proceed, thus removing this issue as a 
source of concern with regard to NATO nuclear expansion. The 
verification provisions contained in START II could be readily applied 
to START III.
    Beyond START II and START III, what is needed is what can be termed 
a Minimum Nuclear Forces Plan, the key component efforts of which would 
include:

    <bullet> Further U.S. and Russian reductions down to a level at 
which the other nuclear weapons nations--Britain, China and France--
should join in, thus opening the way to multilateral reductions;
    <bullet> Bringing all nuclear arsenals step by step to the lowest 
verifiable level consistent with stable security, as rapidly as world 
conditions permit (for consideration, a possible level of 100-200 for 
each nation has been proposed);
    <bullet> Removing nuclear weapons from alert status, placing the 
warheads in secure storage;
    <bullet> Applying these arrangements to all nuclear weapons, 
discarding the distinction between tactical and strategic weapons, 
limiting nuclear warheads rather than launchers, and subjecting all 
weapons to inspection and verification procedures; and
    <bullet> Adopting as a common ultimate goal--the elimination of all 
nuclear weapons, to be accomplished when determined to be feasible, 
verifiable and consistent with the needs of stable security.

    For cooperative nuclear threat reduction along these lines, there 
is a great deal of work to be done--in policy-setting and negotiations, 
in force restructuring, stockpile safety and reliability, verification 
operations and the like. These are the places where effort and 
attention need to be focussed and sustained. The Nunn-Lugar initiative 
has been of tremendous value to U.S. security, and should be sustained 
and augmented.
    Many challenging tasks and prerequisite steps for the nations 
involved are embedded in the proposals I suggest. None appear to be 
unmanageable. Consultations in depth and negotiations with Russia and 
other nuclear weapons states, as well as with allies such as Germany 
and Japan in particular, will be needed, along with development of 
verification procedures for levels of weapons below START II, 
assessments of stability against potential breakout, cheating, 
clandestine or terrorist challenges and the like. All will need to be 
carefully evaluated and subjected to bilateral and multilateral 
consideration and consultation. If we are to be serious and responsible 
about reducing the nuclear danger to U.S. security, attention and 
effort should now be concentrated on these practical issues. When and 
if the practical issues such as those are ultimately successfully 
resolved, and only then, we will have created an option, suitable for 
consideration and decision at that time, of going for total 
elimination.
Non-Proliferation
    The Non-Proliferation Treaty (NPT), indefinitely extended in 1995, 
is the cornerstone of world efforts to prevent the spread of nuclear 
weapons to additional nations. It is reinforced by the Comprehensive 
Test Ban Treaty (CTBT) signed by the United States, the other declared 
nuclear weapons nations and many others (although excluding India). The 
principal component measures of a comprehensive non-proliferation 
effort by the world's major nations, acting collectively and 
individually, are by now well recognized Among the major means of 
carrying out these efforts are:

    <bullet> Detection of actions by potential proliferants leading to 
the production of nuclear weapons even if limited in numbers and crude 
in design. Access to nuclear weapons materials--plutonium and/or highly 
enriched uranium--is assessed to be the most critical and demanding 
step such proliferants face.
    <bullet> Denial of weapons components, materials or means of 
manufacture; this involves the sustained participation of the nations 
with highest technological capabilities, as well as firm control over 
existing weapons arsenals and weapons materials and components to guard 
against theft, illicit sale or diversion. Such denial also involves 
efforts to forestall the movement of trained weapons scientists and 
technicians to the countries of potential proliferants.
    <bullet> Dissuasion of such potential proliferants from pursuing a 
nuclear weapons course. Diplomatic and economic actions--incentive and 
disincentive--are included. The examples of negative decisions--
including those of South Africa, Argentina and Brazil--provide valuable 
practical support.
    <bullet> Deterrence from use or threat of use of these weapons, 
should nations nevertheless develop them, is the next stage; it must 
have as its basis, the unquestioned capabilities for massive and 
quickly decisive attack, including the use of our nuclear weapons if 
required.
    <bullet> Defeat of a nation using or threatening the use of these 
weapons against us or our allies, accompanied by swift and complete 
destruction of its nuclear weapons infrastructure and, so far as 
possible, its delivery forces and weapons. Theater ballistic missile 
defense and at least a limited national missile defense would reinforce 
our attacks against the elements of such weapons capability.

    It is readily evident that none of these measures can be expected 
to be completely effective. Nevertheless, they warrant continued 
attention and high-priority effort. Taken together, they are a powerful 
contribution to reducing the nuclear danger to U.S. security.
Nuclear Deterrence
    So long as nuclear weapons exist elsewhere in the world, along with 
the possibility of their production, it will be essential for the 
United States to maintain an arsenal of nuclear weapons of our own, 
safe, reliable and secure, as well as effective and adequate in 
numbers. As stated earlier, such weapons will surely exist for ten or 
more years, and as far as anyone can now foresee, probably much longer.
    The weapons we maintain will have to continue to fulfill two 
essential roles. The first is to provide continuing high assurance that 
there will be no use or threatened use of nuclear weapons against us or 
our allies. The second is thereby to help deter the nations now without 
nuclear weapons from building or otherwise acquiring them, by making 
clear the added level of risks they would run by doing so.
    An argument for a further role that is often advanced is that 
nuclear weapons are also needed as a final response if other means fail 
to prevent chemical or biological weapons attack against our military 
forces or our public at large. Others argue to the contrary--that our 
high-capability conventional forces, if properly sustained and 
supported, can in combination with defensive protective measures do all 
that may be required. It is an issue that perhaps cannot be finally 
resolved in advance, at least in peacetime. But it need not be, since 
large stocks of nuclear weapons, as previously stated, will in any case 
exist for ten years or more. A much more important issue here is a 
possible mistaken plan to rely on nuclear weapons as an excuse to do 
less than to prepare all that is practically possible in conventional 
military capability for quick and decisive action to deal with these 
threats. There will always be questions, up to the moment of decision, 
as to whether nuclear weapons would in fact ever be used for this 
purpose.
    Other arguments are also sometimes heard, in Europe for example--
that reduced arsenals would make the world safe for conventional war, 
that mutual nuclear deterrence between Russia and the United States is 
in the interest of stable security for the countries of Central and 
Western Europe, that lowered U.S. levels might cause Germany or Japan 
to take the nuclear weapons route--but these when examined closely in 
terms of security for the U.S. (and for the others as well) are far 
from persuasive. More to the point is an intensified effort to build 
and strengthen the positive security relationship with Russia earlier 
mentioned, which the end of the Cold War has offered as an opportunity 
of historic importance.
    To maintain the nuclear deterrent of the effectiveness required, 
the Stockpile Stewardship and Management Program that is being 
conducted jointly by the Departments of Energy and of Defense plays an 
essential role. The Science-Based Stockpile Stewardship Program of the 
Department of Energy presents particular challenges in this regard. The 
end of nuclear testing, dictated by the Comprehensive Test Ban Treaty 
calls for fundamentally deeper scientific understanding of weapons 
phenomena than existed, or was needed,when assurance could be provided 
through testing. The effects of aging will have to be carefully 
assessed, without the confirmation provided by nuclear tests. As the 
generation of weapons designers decreases in number, the depth of 
understanding they embodied will decrease as well. All this means that 
sustained support for the stewardship effort will be imperative.
    On the military side, comparable needs exist as the U.S. nuclear 
weapons posture changes with continuing weapons reductions of the kinds 
contemplated. New targeting doctrines, new alert provisions, new 
operational plans all require to be developed and supported at proper 
levels of effectiveness, through training, force modernization, and 
intelligence activities (particularly concerning potential 
proliferants)--as well as tight coupling to higher decision-making and 
policy echelons.
    These are some of the principal prerequisites to maintaining our 
nuclear deterrent at the effectiveness required providing assurance 
that the weapons we possess are at all times safe, reliable and 
adequate to deter (or respond to) breakout or clandestine violations of 
agreements with other nations on levels and types of weapons to be 
retained in stockpiles, or to take account of an adverse turn in major 
nations' relations.
    I would like to conclude by anticipating the difficulties likely to 
be encountered in maintaining the effectiveness of our nuclear 
deterrent while carrying out the sustained process of downsizing that 
also lies ahead. To do so will require support at the same time for two 
lines of policy and action which some may claim to be in conflict. This 
is, however, no more than our country is now supporting in the whole 
matter of defense, that is, keeping the force effective at reduced 
total levels. It will be a test of governmental and public 
steadfastness to meet the challenge successfully in this crucially 
important security area of nuclear weapons policy.

    Senator Cochran. Our next member of the panel is Richard 
Perle, who is a Resident Fellow at the American Enterprise 
Institute. He was formerly senior defense adviser during the 
administration of President Reagan, and he was a staff member 
of this Committee for a number of years working closely with 
former Senator ``Scoop'' Jackson. Mr. Perle, we welcome you to 
the Committee. You may proceed.

     TESTIMONY OF RICHARD PERLE, RESIDENT FELLOW, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Perle. Thank you very much, Mr. Chairman, and I am 
particularly glad to be here for those very reasons. Scoop had 
a particular affection for this Subcommittee. He believed it 
had perhaps a unique contribution to make to international 
security, and that it could do this best by exploring the 
intellectual underpinnings of our national security policy. He 
was a lot less interested in legislating than in educating in 
this Subcommittee, and I hope, although it has been mentioned, 
Mr. Chairman, I can digress long enough to join in remembering 
a former staff director of this Subcommittee, Dorothy Fosdick. 
Dorothy died last week at the age of 83. She directed the 
Subcommittee staff for nearly 20 years, I think, and was its 
guiding force through hundreds of hearings like this one today. 
She was, as senators who knew her know, a tremendously 
energetic, intelligent and conscientious public servant, who 
fought with skill and tenacity for American strength of purpose 
and of arms throughout the Cold War, and happily Dickie lived 
to see that titanic struggle end with the Western victory to 
which she so abundantly contributed.
    One of the issues on which Dickie, as she was known 
throughout the Senate, worked long and hard was the subject of 
today's hearing, nuclear weapons, and I have little doubt that 
she would have organized a hearing on today's subject out of a 
deep concern, which I share, that the United States not embrace 
even as a long-term goal the objective of eliminating all 
nuclear weapons.
    Mr. Chairman, I have read the joint statement by my friend 
General Goodpaster and General Lee Butler. I have known General 
Goodpaster for many years and hold him in the highest regard, 
and Dickie was a friend of his as well, an admirer. And while I 
know General Butler less well, I certainly credit his 
intelligence and experience. So it is despite my personal 
respect for these men that I disagree sharply with their advice 
as to the desirability of eliminating all nuclear weapons, and 
I must say that as I listened to General Goodpaster I began to 
wonder whether he might disagree in some sense with that 
advice, too. He made such a persuasive case for the utility of 
nuclear weapons in the world we are now living in, but more of 
that later.
    They have made the judgment that our security would be 
enhanced by the elimination all nuclear weapons. I believe on 
the contrary, that our security would be profoundly undermined 
by the elimination of all nuclear weapons, even if agreements 
providing for this could be negotiated and universally 
ratified. In the real world, there is no serious possibility of 
an agreement eliminating all nuclear weapons in the foreseeable 
future, and we all agree on that. Generals Goodpaster and 
Butler seem to recognize this even in their prepared statement 
when they say, ``The phased withdrawal and destruction of 
nuclear weapons from all countries' arsenals would take many 
years, probably decades, to accomplish.'' And General 
Goodpaster reiterated that this morning.
    Elsewhere in their joint statement, however, the generals 
acknowledge that, ``No one can say today whether or when this 
final goal will prove feasible.'' Nevertheless, despite the 
uncertainty about whether the course they recommend will prove 
feasible, they urge now to undertake a serious commitment to 
it. I should have thought that embarking on a policy, the 
feasibility of which cannot be shown, is a most doubtful and 
risky way to shape our future security. If you cannot be sure 
it is feasible, maybe you should wait until you are sure it is 
feasible before embracing it.
    Before outlining why I think it would be dangerous and 
unwise to embrace a goal of admitted uncertain feasibility but 
certain grave risks, let me say two things about a second 
statement with the same theme issued by a long list of flag 
officers from several countries the day after the Goodpaster-
Butler joint statement, and I trust these statements were 
worked in coordination with one another. This second statement 
is longer but no sounder. And unlike the Goodpaster-Butler 
statement, which is unquestionably sincere but debatable, the 
second statement is tinged with hypocrisy reminiscent of the 
Cold War. The ``Statement on Nuclear Weapons by International 
Generals and Admirals,'' the title to the statement to which I 
refer, which advocates immediate reductions in nuclear weapons 
stockpiles on the way to the eventual elimination of all 
nuclear weapons, has been signed among others by a number of 
very senior retired Russian officers, including the vice-
chairman of the Duma International Affairs Committee and the 
chairman of the Duma Defense Committee.
    Now, unless I am mistaken, and it was confirmed in earlier 
testimony, the Duma has thus far refused to ratify the START II 
Treaty which calls for significant reductions in the U.S. and 
Russian nuclear arsenals, reductions that would still leave in 
place numbers of weapons that the signers of the statement 
consider exceedingly large. I would suggest that General Boris 
Gromov's time and that of his colleague General Lev Rokhlin 
might be profitably used to line up the votes in their Duma 
committees necessary to ratify START II rather than propagating 
high-sounding declarations about a nuclear-weapons free world. 
And let me just in passing remind the Subcommittee that it was 
one of the persistent themes of Soviet propaganda through the 
whole of the Cold War that complete and total disarmament was 
the highly desirable objective, while they built a massive 
nuclear force. There is tremendous room for hypocrisy in 
conjunction with utopian statements.
    Second, while the statement is signed by generals and 
admirals from several countries and appears to derive its 
authority from the military credentials of the signers, it is 
like the statement from Generals Goodpaster and Butler a 
political rather than a military utterance reflecting political 
rather than military judgments. There is nothing wrong with 
political judgments, and some military men make them 
intelligently and effectively. But in an effort to inflate the 
authority with which the many signers of this statement make 
their political judgments, the signers refer to their 
``intimate and perhaps unique knowledge of the present security 
and insecurity of our countries and peoples.''
    This is followed immediately by a flood of political 
judgments about the Cuban missile crisis, various treaties and 
U.N. actions, the efficacy and credibility of deterrence and 
arms control, the likely behavior of rogue States and 
terrorists and the like. Now, I go out of my way to mention 
this, Mr. Chairman, because officials responsible for nuclear 
weapons policy, in my judgment, should not accord undue weight 
to the opinions of military men when they address topics that 
are quintessentially political in nature. This is true in 
general. It is doubly true when the stars are not on their 
uniforms but in their eyes.
    Mr. Chairman, there are at least five important reasons why 
we should categorically reject and unapologetically reject the 
argument that the elimination of all nuclear weapons is a wise 
goal or would be a wise goal for the United States. First, 
there is no way to verify compliance with a treaty banning all 
nuclear weapons, not now, not tomorrow, not ever. The weapons 
are too small and the space in which they can be hidden too 
vast to allow for confident monitoring. Walt Slocombe earlier 
answering a question from Senator Levin said, well, it is not 
against the laws of physics. The idea that we could detect a 
hidden nuclear weapon on territory the size say of Russia is 
against the laws of physics, if I can put it that way. So this 
is not a problem we will eventually solve.
    Second, the elimination of our last remaining nuclear 
weapon in light of the near certainty that others would cheat 
and hold some weapons back would be an act of supreme folly. 
For what possible benefit would we be wise to take such a huge 
risk? If one or more nations did cheat, we would by a single 
wildly imprudent act place this country in grave peril. No 
president, no prime minister, and certainly no dictator would 
ever do such a thing. Every State able to do so would cheat, 
but we perhaps alone would not. The United States would not 
undertake solemn treaty obligations equal in force to the 
supreme law of our land while secretly carrying out violations. 
The actual real world result would be the unilateral nuclear 
disarmament of the United States.
    General Butler in a speech to the Stimson Center expressed 
indignation that his views might have been unfairly 
characterized as implying unilateral disarmament, but I do not 
see how at the end of the day giving up the last American 
weapon could be regarded as anything other than an act of 
unilateral disarmament. Ask yourself would the 18 general 
officers from Russia, who have signed the statement, accept 
that the United States, China, France, the United Kingdom, 
India, Israel, and whoever else has nuclear weapons at the 
time, would all turn over their last remaining weapon? These 
skeptical Russian generals, the last Chinese weapon? And if 
they would not, how would they seek to hedge against one or 
more of the others hiding some of their own nuclear weapons? 
Why they would hold back some of their own, of course. Fear of 
the actions of others would be quite sufficient to cause 
cheating on a grand scale.
    Third, even if the impossible happened, and everyone turned 
in his last weapon, how long would it be before the continuing 
technical and scientific know-how and industrial capacity in 
the former nuclear weapons statements was mobilized to 
reestablish one or more nuclear powers? If one assumes a future 
serene world in which sovereign States with nuclear weapons 
give them up in confidence that their potential adversaries 
have done the same, how dangerous would the weapons be in the 
first place? And if the world was still a dangerous place, how 
could one safely assume that the weapons would be given up?
    The point is you cannot separate the meaning and 
implications of the weapons from the international political 
context. It is a common error, especially on the part of 
military and arms control professionals, to attribute to 
weapons themselves the properties that, in fact, derive from 
the political situation in which they are fielded. That, Mr. 
Chairman, is what strikes me as profoundly wrong about 
Secretary Perry's statement, quoted approvingly by General 
Goodpaster this morning. ``Fewer weapons in fewer hands makes 
the world safer.'' Now, does that mean fewer weapons in 
American hands makes the world safer or fewer weapons in all 
hands combined makes the world safer? I think the world would 
be safer if there were fewer weapons, and they were all in 
American hands frankly.
    So the point is not that there is a relationship between 
safety and the number of weapons. There is a relationship 
between safety and a great many other factors, and the 
political context and who has the weapons and what their 
political purpose is and what their strategy and doctrine is 
goes to the heart of the issue. And silly formulations that the 
fewer the number of weapons or that zero is the ideal State and 
anything above zero is worse than the ideal State only confuses 
us about all the many issues we have to resolve about the 
appropriate size and structure and doctrine and tactics 
concerning our nuclear forces.
    Setting aside the concern that Russian nuclear weapons 
could fall into unauthorized hands, and that is a very real 
problem, are we anything like as concerned today about 
thousands of Russian nuclear weapons as we were during the Cold 
War? Of course not. Just as Canadians and Mexicans never feared 
America's vast arsenal of nuclear weapons because the political 
context among us was benign, our concern about Russia's weapons 
and presumably their concern about ours is sharply and 
appropriately diminished with the end of the Cold War.
    It is ironic, Mr. Chairman, that just when things are 
looking up with the end of the Cold War, along comes an 
international group of retired flag officers prepared to say 
that nuclear weapons, ``represent a clear and present danger to 
the very existence of humanity.'' I think they are far less 
dangerous today obviously than they were during the Cold War, 
and that would be true even if there were more of them. In 
fact, there are fewer. General Goodpaster referred to the 7,000 
nuclear weapons under his command. It is ironic that we should 
be testifying under these circumstances since I worked long and 
hard as chairman of the NATO Committee to reduce the number of 
nuclear weapons I inherited from General Goodpaster and his 
successes, and we succeeded in doing that.
    Fourth, the elimination of nuclear weapons or even a 
commitment to eliminate them in the future would be a major 
encouragement to potential proliferators. Consider the daunting 
challenge faced by a non-nuclear State that today wishes to 
acquire nuclear weapons. They must mobilize very substantial 
financial and technical resources behind a clandestine program. 
If caught, as the Israelis caught the Iraqis in 1981, they may 
be attacked and their facilities destroyed. If they succeed, 
they may wind up with a handful of weapons. These would pose a 
serious threat to us and to others, to be sure, but the United 
States possesses many thousands of such weapons and other 
nuclear weapon States have hundreds or thousands.
    Surely, a State with a handful of nuclear weapons would 
take seriously the substantial nuclear arsenals of the major 
nuclear powers. Now imagine that we and others are about to 
give up our last remaining nuclear weapons or that we have 
committed to do so in the future. The mere handful that a 
successful proliferator might manage to acquire suddenly looks 
like an arsenal bestowing great power status. Is that a 
situation we wish to create or encourage? I know it is popular 
to argue that the disarmament of the main nuclear powers is 
essential to discourage proliferation, and Senator Levin had 
some important questions about that. I think the truth is just 
the opposite. Does anyone seriously believe the Indians would 
not have developed nuclear weapons if the United States had 
committed to total nuclear disarmament? Or that the Pakistanis 
would forebear if we with or without the Indians promise to 
eliminate all nuclear weapons or actually did so?
    Our possession of nuclear weapons does far more to 
discourage proliferation than to encourage it since it 
reassures our friends and allies that the protection we afford 
them is ultimately backed up by nuclear weapons, and I was 
delighted to see that Walt Slocombe and I are in agreement on 
this point.
    Fifth, the elimination of all nuclear weapons would end our 
possession of our deterrent force that has contributed 
significantly to the peace among nuclear powers that has 
prevailed since World War II, and General Goodpaster reaffirmed 
that in his remarks. It is certainly true that the Cold War 
gave rise to tensions and disputes that might well have led to 
war between East and West. That no such war occurred is a 
result of the delicate balance of power that prevailed among 
nuclear weapon States. At crucial periods during the Cold War, 
our nuclear deterrent served to balance Soviet superiority of 
conventional forces in a divided Europe, and there is good 
reason why General Goodpaster was happy to have those 7,000 
weapons. He knew what he faced in the way of a conventional 
threat from the Warsaw Pact. And while conventional weapons 
have improved dramatically, and we are less dependent on 
nuclear weapons than at any time since their invention, they 
still exert a sobering influence that cannot be achieved by 
other means.
    Mr. Chairman, I happen to believe that the U.S. stockpile 
of nuclear weapons is larger than is necessary for deterrence 
and could be safely reduced, and in this I agree with Walt 
Slocombe and in spirit anyway with General Goodpaster. I would 
urge that we decommission those nuclear weapons no longer 
necessary for deterrence as we develop further the precision 
systems capable of military efficacy equal to nuclear weapons. 
This seems to me just prudent defense planning, especially 
since the credibility of the use of nuclear weapons in 
situations that can be handled without them is close to zero.
    Even here, though, I would not wish to be understood as 
endorsing the admirals and generals when they too call for 
cutting back on present and planned stockpiles of nuclear 
weapons, and the reason for distancing my view from theirs is 
the underlying logic of our respective positions. I want a 
minimum nuclear force, not because nuclear weapons are 
inherently dangerous and should be eliminated, but because they 
can serve our security interests if they are deployed in 
numbers and according to a doctrine that is realistic and 
carefully conceived. That is a very different standard than the 
standard that zero is best and anything other than zero is less 
desirable. As General Butler knows, that is certainly not what 
we had when he headed the Strategic Air Command.
    In place of a deliberate strategy combining nuclear and 
non-nuclear weapons in a way that took account of the 
credibility and effectiveness of their use, we had a strategic 
war plan that called for massive retaliation, mutual assured 
destruction, in response to a variety of contingencies, many of 
which would in the real world never have been authorized.
    Even the major war scenarios entailed the use of nuclear 
weapons on a scale that was wholly incredible. I believe that 
what we now hear from General Butler is a distressed reaction 
to the ludicrous strategy he was sent to Omaha to superintend, 
and I hope thoughtful observers will conclude that further 
reductions in nuclear arsenals need not be accompanied by an 
apocalyptic utopian vision for their total elimination.
    Mr. Chairman, I have tried to suggest three things this 
morning: that nuclear weapons cannot be safely eliminated now; 
that they have served and can continue to serve our security 
interests if managed properly; and that the goal of eliminating 
them entirely in some distant hazy utopia is a dangerous and 
unwise goal. If I might add a last point, it is to endorse the 
urgent need to proceed with the development of a defense 
against ballistic missiles, an idea that arises directly out of 
the concerns expressed in the statement of admirals and 
generals, but is, curiously, wholly absent from their 
considerations.
    I once had occasion privately to discuss the idea of 
eliminating all nuclear weapons with President Reagan. I said I 
thought the Soviets would cheat and probably others as well. So 
do I, he said. That is why it could be done only after we had a 
fully effective SDI in place. And I think Senator Stevens 
captured that logic in the question he put to Walt Slocombe. 
Until then, Mr. Chairman, let us not rush to embrace goals that 
would make sense only in a world that does not exist. Thank 
you.
    [The prepared statement of Mr. Perle follows:]
                  PREPARED STATEMENT OF RICHARD PERLE
    Mr. Chairman, it is a pleasure to appear before the Subcommittee to 
comment on the future of nuclear deterrence. I spent more than a decade 
as a member of the staff of this Subcommittee and its predecessors 
under the chairmanship of Senator Henry M. Jackson. It was Scoop's view 
that this Subcommittee had an important contribution to make to 
international security and that it could do this best by exploring the 
intellectual underpinnings of our national security policy.
    I hope, Mr. Chairman, I may be permitted to digress long enough to 
remember a distinguished former staff director of this Subcommittee, 
Dorothy Fosdick, who died last week at the age of 83. Dorothy directed 
the Subcommittee staff for nearly 20 years and was its guiding force 
through hundreds of hearings like this one today. She was a 
tremendously energetic, intelligent and conscientious public servant 
who fought with skill and tenacity for American strength of purpose and 
of arms throughout the Cold War. Happily, she lived to see that titanic 
struggle end with the western victory to which she so abundantly 
contributed.
    One of the issues on which Dorothy--or Dickie as she was known 
throughout the Senate--worked long and hard was the subject of today's 
hearing, nuclear weapons. I have little doubt that she would have 
organized a hearing on today's subject out of a deep concern, which I 
share, that the United States not embrace, even as a long term goal, 
the objective of eliminating all nuclear weapons.
    Mr. Chairman, I have read the joint statement by my friend General 
Goodpaster and General Lee Butler. I've known General Goodpaster for 
many years and hold him in the highest regard. And while I know General 
Butler less well, I certainly credit his intelligence and experience. 
So it is despite my personal respect for these men that I disagree 
sharply with their advice as to the desirability of eliminating all 
nuclear weapons.
    They have made the judgment that our security would be enhanced by 
the elimination of all nuclear weapons. I believe, on the contrary, 
that our security would be profoundly undermined by the elimination of 
all nuclear weapons, even if agreements providing for this could be 
negotiated and universally ratified.
    In the real world there is no serious possibility of an agreement 
eliminating all nuclear weapons in the foreseeable future. Generals 
Goodpaster and Butler seem to recognize this when they say ``. . . the 
phased withdrawal and destruction of nuclear weapons from all 
countries' arsenals would take many years, probably decades, to 
accomplish.''
    But elsewhere in their joint statement, the generals acknowledge 
that ``No one can say today whether or when this final goal will prove 
feasible . . .'' Nevertheless, despite uncertainty about whether the 
course they recommend will prove feasible, they urge us to undertake 
now a serious commitment to it. I should have thought that embarking on 
a policy the feasibility of which cannot be shown is a most doubtful 
and risky way to shape our future security.
    Before outlining why I think it would be dangerous and unwise to 
embrace a goal of admitted uncertain feasibility but certain grave 
risks, let me say two things about a second statement with the same 
theme, issued by a long list of flag officers from several countries a 
day after the Goodpaster-Butler joint statement.
    This second statement is longer but no sounder. And unlike the 
Goodpaster-Butler statement, which is sincere but debatable, the second 
statement is tinged with hypocrisy reminiscent of the statements 
emanating from the ``peace'' movement of the Cold War. The ``Statement 
on Nuclear Weapons by International Generals and Admirals,'' which 
advocates immediate reductions in nuclear weapon stockpiles on the way 
to the eventual elimination of all nuclear weapons, has been signed, 
among others, by a number of very senior retired Russian officers, 
including the vice-chairman of the Duma International Affairs Committee 
and the chairman of the Duma Defense Committee.
    Now, unless I am mistaken, the Duma has thus far refused to ratify 
the START II Treaty which calls for significant reductions in the U.S. 
and Russian nuclear arsenals--reductions that would leave in place 
numbers of weapons the signers of the statement consider ``exceedingly 
large.'' I would suggest that General Boris Gromov's time and that of 
his colleague General Lev Rokhlin might be profitably used to line up 
the votes in their Duma committees necessary to ratify START II rather 
than propagating high-sounding declarations about a nuclear-weapons 
free world.
    Second, while the statement is signed by generals and admirals from 
several countries, and appears to derive its authority from the 
military credentials of the signers, it is, like the statement from 
Generals Goodpaster and Butler, a political rather than a military 
utterance reflecting political rather than military judgments. In an 
effort to inflate the authority with which their political judgment 
will be received, the signers refer to their ``intimate and perhaps 
unique knowledge of the present security and insecurity of our 
countries and peoples.'' This is followed immediately by a flood of 
political judgments about the Cuban missile crisis, various treaties 
and U.N. actions, the efficacy and credibility of deterrence, the 
likely behavior of rogue states and terrorists, and the like.
    I go out of my way to mention this, Mr. Chairman, because officials 
responsible for nuclear weapons policy should not accord undue weight 
to the opinions of military men when they address topics that are 
quintessentially political in nature. This is true in general. It is 
doubly true when the stars are not on their uniforms, but in their 
eyes.
    Mr. Chairman, there are at least five important reasons why we 
should reject categorically and unapologetically the argument that the 
elimination of all nuclear weapons would be a wise goal for the United 
States.
    First, there is no way to verify compliance with a treaty banning 
all nuclear weapons. Not now. Not tomorrow. Not ever. The weapons are 
too small and the space in which they can be hidden too vast to allow 
for confident monitoring.
    Second, the elimination of our last remaining nuclear weapon, in 
light of the near certainty that others would cheat and hold some 
weapons back, would be an act of supreme folly. For what possible 
benefit would we be wise to take such a huge risk? If one or more 
nations did cheat we would, by a single wildly imprudent act, place 
this country in grave peril. No President, no prime minister, and 
certainly no dictator would ever do such a thing. Every state able to 
do so would cheat. But we--perhaps alone--would not. The United States 
would not undertake solemn treaty obligations, equal in force to the 
supreme law of our land, while secretly carrying out violations. The 
actual, real world result would be the unilateral nuclear disarmament 
of the United States.
    Ask yourself, would the eighteen general officers from Russia who 
have signed the statement accept that the United States, China, France, 
the United Kingdom, India, Israel and whoever else has nuclear weapons 
at the time would all turn over their last remaining weapon? And if 
they would not, how would they seek to hedge against one or more of the 
others hiding some of their nuclear weapons? Why, they would hold back 
some of their own, of course. Fear of the actions of others would be 
quite sufficient to cause cheating on a grand scale.
    Third, even if the impossible happened and everyone turned in his 
last weapon, how long would it be before the continuing technical and 
scientific know-how and industrial capacity in the former nuclear-
weapon states was mobilized to re-establish one or more nuclear powers?
    If one assumes a future serene world in which sovereign states with 
nuclear weapons give them up in confidence that their potential 
adversaries have done the same, how dangerous would the weapons be in 
the first place? And if the world was still a dangerous place, how 
could one safely assume that the weapons would be given up? The point 
is you can't separate the meaning and implications of the weapons from 
the international political context. It is a common error, especially 
on the part of military and arms control professionals, to attribute to 
weapons themselves the properties that in fact derive from the 
political situation in which they are fielded.
    Setting aside the concern that Russian nuclear weapons could fall 
into unauthorized hands, are we anything like as concerned today about 
thousands of Russian nuclear weapons as we were during the Cold War? Of 
course not. Just as Canadians and Mexicans never feared America's vast 
arsenal of nuclear weapons because the political context among us was 
benign, our concern about Russia's weapons--and presumably their 
concern about ours--is sharply, and appropriately, diminished. It is 
ironic, Mr. Chairman, that just when things are looking up with the end 
of the Cold War, along comes an international group of retired flag 
officers prepared to say that nuclear weapons ``represent a clear and 
present danger to the very existence of humanity.''
    Fourth, the elimination of nuclear weapons, or even a commitment to 
eliminate them in the future, would be a major encouragement to 
potential proliferators. Consider the daunting challenge faced by a 
non-nuclear state today that wishes to acquire nuclear weapons. They 
must mobilize very substantial financial and technical resources behind 
a clandestine program. If caught--as the Israelis caught the Iraqis in 
1981--they may be attacked and their facilities destroyed. If they 
succeed, they may wind up with a handful of weapons. These would pose a 
serious threat to us and to others, to be sure. But the United States 
possesses many thousands of such weapons and other nuclear weapon 
states have thousands or hundreds. Surely a state with a handful of 
nuclear weapons would take seriously the substantial nuclear arsenals 
of the major nuclear powers.
    Now imagine that we and others are about to give up our last 
remaining nuclear weapons, or that we have committed to do so in the 
future. The mere handful that a successful proliferator might manage to 
acquire suddenly looks like an arsenal bestowing Great Power status. Is 
that a situation we would wish to create?
    I know it is popular to argue that the disarmament of the main 
nuclear powers is essential to discourage proliferation. I think the 
truth is just the opposite. Does anyone seriously believe the Indians 
would not have developed nuclear weapons if the United States had been 
committed to total nuclear disarmament? Or that the Pakistanis would 
forebear if we, with or without the Indians, promised to eliminate all 
nuclear weapons. Our possession of nuclear weapons does far more to 
discourage proliferation than to encourage it since it reassures our 
friends and allies that the protection we afford them is ultimately 
backed up by nuclear weapons.
    Fifth, the elimination of all nuclear weapons would end our 
possession of a deterrent force that has contributed significantly to 
the peace among nuclear powers that has prevailed since World War II. 
It is certainly true that the Cold War gave rise to tensions and 
disputes that might well have led to war between East and West. That no 
such war occurred is a result of the delicate balance of power that 
prevailed among nuclear weapon states. At crucial periods during the 
Cold War our nuclear deterrent served to balance Soviet superiority of 
conventional forces in a divided Europe. And while conventional weapons 
have improved dramatically, and we are less dependent on nuclear 
weapons than at any time since their invention, they still exert a 
sobering influence that cannot be achieved by any other means.
    Mr. Chairman, I happen to believe that the U.S. stockpile of 
nuclear weapons is larger than is necessary for deterrence and could be 
safely reduced. I would urge that we decommission those nuclear weapons 
no longer necessary for deterrence as we develop further the precision 
systems capable of military efficacy equal to nuclear weapons. This 
seems to me just prudent defense planning, especially since the 
credibility of the use of nuclear weapons in situations that can be 
handled without them is close to zero.
    Even here, though, I would not wish to be understood as endorsing 
the admirals and generals when they too call for cutting back on 
present and planned stockpiles of nuclear weapons. The reason for 
distancing my view from theirs' is the underlying logic of our 
respective positions: I want a minimum nuclear force not because 
nuclear weapons are inherently dangerous and should be eliminated, but 
because they can serve our security interests if they are deployed in 
numbers and according to a doctrine that is realistic and carefully 
conceived.
    As General Butler knows, that is certainly not what we had when he 
headed the Strategic Air Command. In place of a deliberate strategy 
combining nuclear and non-nuclear weapons in a way that took account of 
the credibility and effectiveness of their use, we had a strategic plan 
that called for massive retaliation--mutual assured destruction--in 
response to a variety of contingencies, many of which would, in the 
real world, never have been authorized. Even the major war scenarios 
entailed the use of nuclear weapons on a scale that was wholly 
incredible. I believe that what we now hear from General is a 
distressed reaction to the ludicrous strategy he was sent to Omaha to 
superintend. And I hope thoughtful observers will conclude that further 
reductions in nuclear arsenals need not be accompanied by an 
apocalyptic utopian vision for their total elimination.
    Mr. Chairman, I have tried to suggest three things this morning: 
That nuclear weapons cannot be safely eliminated now; that they have 
served and can continue to serve our security interests if managed 
properly; and that the goal of eliminating them entirely in some 
distant hazy utopia is dangerous and unwise. If I might add a fourth it 
is to endorse the urgent need to proceed with the development of a 
defense against ballistic missiles, an idea that arises directly out of 
the concerns expressed in the statement of admirals and generals, but 
is, curiously, wholly absent from their considerations.
    I once had occasion privately to discuss the idea of eliminating 
all nuclear weapons with President Reagan. I said I thought the Soviets 
would cheat, and probably others as well. ``So do I,'' he said. 
``That's why it could be done only after we had a fully effective SDI 
in place.''
    Until then, Mr. Chairman, let's not rush to embrace goals that 
would make sense in a world that does not exist.

    Senator Cochran. Thank you very much, Mr. Perle, and thank 
you both for the comments and the remarks that you have 
provided to the Committee today. I must say that this is truly 
educational, and reading the statements in preparing for this 
hearing has given me a greater depth of understanding and 
appreciation of the issues involved in this subject than I had 
before, and I know that other senators have had similar 
experiences. I hope that this Subcommittee can continue a 
series of hearings on this and similar subjects so we can 
explore the underpinnings of our policies in this regard. We 
all want to do what we can to contribute toward the security 
interests of the United States and also the safety and security 
of mankind. I do not think that is too lofty a goal to 
undertake to accomplish, and the United States at this 
particular moment in its history is uniquely situated to do 
more than anyone, do more than any other country, in the 
furtherance of that goal.
    So I do not see anything wrong with having goals like world 
peace or agreements to deal more sanely with weapons and the 
potential for mass destruction. Verification is, of course, 
essential in all of this. President Reagan's admonition about 
trusting but verifying is all too important for us to forget, 
and so in the real world there are essential factors that we 
must take into account that have a limiting effect on what our 
ambitions may be at the moment. As Senator Levin pointed out 
and others have mentioned, Secretary Slocombe when he 
testified, I think mankind generally shares in the goal and the 
hope that is reflected in the provisions of some of these 
agreements like the NPT.
    But the real question, it seems to me, is what is happening 
here in the real world today, and whether or not we may have 
seen some news accounts getting maybe carried away with the 
hype of stories. I notice, for example, in the Christian 
Science Monitor, General Goodpaster wrote an essay, and he 
talked along the lines that he has commented today on this 
subject, but yet if you look at the headline of the essay in 
the Christian Science Monitor, the article from December 16, 
``Nuclear Weapons: Time to Phase Them Out? Yes. Utility is Low 
and Risks High.'' But in the lead sentence, what General 
Goodpaster says is there are compelling reasons for major new 
initiatives to reduce the world's nuclear weapons arsenals. 
Well, that is a lot less than what is in the headline, and that 
is the lead, and the rest of it goes on from there.
    I am not suggesting that people write headlines to capture 
attention and sell newspapers--heaven forbid--but we know that 
happens. I think we have seen here today some that have been 
referred to where the hype has prevailed over the content. So I 
think to some extent the media hype that has become almost 
overwhelming in this discussion and in this debate. Having said 
that, let me just ask a couple questions of General Goodpaster.
    Senator Stevens. Mr. Chairman, would you yield just a 
second?
    Senator Cochran. Senator Stevens. I would be happy to 
yield.
    Senator Stevens. I have to leave, but I just wanted to 
thank General Goodpaster and Richard Perle for coming and tell 
you, Mr. Chairman, that I congratulate you for starting this 
series of hearings, and I hope that we will keep up this 
inquiry because I too was taken with the statement of the 
generals, but I understand a lot better after reading General 
Goodpaster's statement today, and, General, being as I think 
the last Eisenhower appointee to serve in the Congress, I 
welcome you here. I remember distinctly as a young man walking 
into the White House and seeing you there. You are a great 
encouragement to all of us, your vitality and your interests 
and the things you are involved in. So I join in saying happy 
birthday to you and welcome you here.
    General Goodpaster. Thank you, sir. Nothing like 
durability. [Laughter.]
    Senator Cochran. Thank you, Senator Stevens. There is a 
question about whether or not nuclear deterrence would have an 
effect in diminishing the ambition of others to use weapons 
that are non-nuclear, such as biological and chemical weapons. 
I must inquire as to whether or not you think, and I'll ask 
this of both our distinguished witnesses, the recent experience 
of the Gulf War is informative on that score. There have been a 
couple of statements that have come out of discussions with 
those who were involved with the Iraqi military. An Iraqi 
intelligence official, General Samurai, has openly discussed 
the fact that the decision about whether to use chemical 
weapons or biological weapons against the troops on our side in 
that conflict was affected by our nuclear arms capability.
    I am going to read his quote. It says, ``I do not think 
Saddam was capable of taking a decision to use chemical weapons 
or biological weapons against the allied troops because the 
warning was quite severe and quite effective. The allied troops 
were certain to use nuclear arms, and the price will be too 
dear and too high.'' There was another statement attributed to 
Tariq Aziz, the foreign minister of Iraq, in a conversation 
with Secretary of State James Baker. He talked about the 
overwhelming conventional power that would be brought to bear 
against Iraq, but also a suggestion that ``Iraq could survive 
and this leadership will decide the future of Iraq.''
    Some think that there is utility in the nuclear capability 
in terms of deterrence against the development of other weapons 
systems besides nuclear weapons and the threat or use of them. 
That seems to be either not taken into account or discounted in 
the statement that General Goodpaster and Butler issued. Am I 
reading that correctly, General?
    General Goodpaster. I think the question of the adequacy of 
our conventional forces for that role, that question is open. I 
do not believe it can be fully resolved today. I take refuge in 
the fact that it does not have to be resolved today because of 
the continued existence of our nuclear weapons, and I would 
hope that by the time we get to what I call the lowest 
verifiable level where we could consider the possibility of 
complete elimination, by that time it can be resolved and would 
be resolved in favor of sole reliance on conventional arms 
alone, but in practical terms in the world that we live in, the 
continued existence of our nuclear capability has significant 
weight, I believe, as a deterrent to other countries, rogue 
countries, developing and threatening the use or actually using 
these weapons.
    Senator Cochran. Mr. Perle, any reaction to the idea of the 
utility of nuclear weapons in terms of deterrence against the 
development of weapons of mass destruction development and 
threats of use of those weapons?
    Mr. Perle. I think it was almost certainly in Saddam 
Hussein's mind that if he went beyond a certain point, we might 
well respond with a nuclear weapon, and it will always be in 
the mind of a non-nuclear State that has to contemplate that. 
So there is a deterrent shadow even against the use of other 
weapons of mass destruction or for that matter against 
particularly egregious actions. We would be foolish to give 
that up, and I do not think anyone is suggesting that we give 
that up now, and it is not clear to me why we would want to 
give it up in the future either.
    Senator Cochran. In addition to the statement about 
bringing down the numbers of nuclear weapons dramatically on 
our side and working toward agreements with others to do 
likewise, there is a suggestion that reducing the alert status 
of nuclear weapons may also contribute to further stability and 
less risky relationship with other countries. What is your 
reaction to that, Mr. Perle? I know that is in the Christian 
Science Monitor essay by General Goodpaster, where he advocates 
reducing the alert status of nuclear weapons.
    Mr. Perle. I think it is important to do everything we can 
to diminish the likelihood that a nuclear weapon might ever be 
used in circumstances where we did not intend to use it. And 
the so-called hair trigger has been a problem from the 
beginning. A great many systems have been developed to try to 
control that, and I think we have a very good system of control 
in place. I would not dismiss out of hand changes in alert 
status that might reduce still further the possibility of an 
accidental or unintended use of nuclear weapons.
    Senator Cochran. I think General Goodpaster pointed out 
correctly that there already has been a lot of change in terms 
of targeting and other doctrines and policies on the part of 
Russia and the United States with respect to the nuclear 
weapons arsenals. And I suppose the changes in alert status 
have already taken place in many instances, and there have been 
descriptions by Secretary Slocombe about the numbers of weapon 
systems that have been set aside and are not available for use 
anymore by the United States. Have there been changes that 
maybe the general public does not know that you could tell us 
about that would give us some evidence of how this works or how 
it is a part of the new emerging nuclear doctrine of the United 
States?
    General Goodpaster. There have been changes that bear on 
the State of alert and the risks that that represents. First of 
all, the complete elimination of the SS-20 on their side and 
the Pershings and cruise missiles on our side was a very 
important step, and one of the drivers behind that step was to 
eliminate this hair trigger situation that existed with respect 
to those weapons. On the matter of changing the alerts, of 
course, there have been the agreements to detarget the weapons 
that we have. Those agreements are significant but limited in 
that the weapons could be retargeted quite quickly. Further 
steps in reducing the alert status will require very, very 
careful consideration, and in that consideration I would hope 
that great attention would be given to the importance of 
reducing, finding ways to assure that the alert status of the 
Russian missiles, in particular that the alert status of those 
missiles has, in fact, been reduced at a time when the 
situation of their armed forces is really almost chaotic. That 
is a special risk, it seems to me, that requires special 
attention.
    Mr. Perle. Could I just add, Mr. Chairman?
    Senator Cochran. Mr. Perle.
    Mr. Perle. The principal reason for the high alert status, 
which was important during the Cold War, was a concern that a 
well-crafted concerted attack on our retaliatory capability 
could so degrade it that we would not, in fact, have a credible 
deterrent. Of all the things one could do to lessen the burden 
of quick response and therefore the need for alert forces, the 
development of a ballistic missile defense seems to me a 
terribly important one. That is to say if we were confident 
that the critical elements of our deterrent would survive an 
attack, we would not feel it necessary to maintain an ability 
to respond instantly.
    So this is why I was surprised that there was no reference 
to a defense in this statement of the admirals and generals 
since a defense would permit us to do a great many things of 
the kind that they suggest, reducing numbers of weapons, 
reducing their alert status as well.
    Senator Cochran. Senator Levin, do you have questions?
    Senator Levin. Thank you, Mr. Chairman. First, let me wish 
you also a happy birthday, General. I will not ask you what 
number, but how old are you? [Laughter.]
    General Goodpaster. Eighty-two, today.
    Senator Levin. Congratulations.
    General Goodpaster. That used to seem like a big number, 
but it has gotten a great deal smaller.
    Senator Levin. Well, my father-in-law is 99 this week so 
you've got a ways to go. It seems to me that once General 
Goodpaster has said that nobody knows whether, when or how to 
eliminate nuclear weapons in a prudent way, that the real issue 
now should shift to how we can get to the next and whether we 
should get to the next level of reductions. Whether you accept 
the ultimate elimination as a goal or not, there seems to be 
some agreement that we ought to reduce it below the current 
level or that we might want to reduce it below the current 
level. So I would like to focus on that. It strikes me that it 
is in our interest that Russia not develop a new single warhead 
ICBM. It is in their interest, they say, too, because they do 
not have the money. It would seem to me it is in our interest 
that no new nuclear weapon systems be developed by anybody 
else. Would you agree with that?
    Mr. Perle. No, I do not think I would agree with that.
    Senator Levin. OK. I said by anybody else----
    Mr. Perle. I think you always want to keep technical 
options open.
    Senator Levin. I thought you said you would rather there be 
no weapons in anybody's hands other than ours?
    Mr. Perle. Except ours, yes.
    Senator Levin. So that is why I said would it not be then 
in our interest that no weapon be developed by anybody else?
    Mr. Perle. Other than--oh, yes, anybody else. Yes, I agree 
with that.
    Senator Levin. All right.
    Mr. Perle. Unless, unless----
    Senator Levin. That may be the last thing we agree on. At 
least I want to establish that.
    Mr. Perle. Unless you had the substitution of a less 
dangerous weapon for a more dangerous weapon.
    Senator Levin. All right. That is a fair qualification. By 
the way, before I go on I want to ask, Mr. Chairman, that 
Senator Glenn's statement and a set of questions that he would 
like to be inserted for the record be inserted at the 
appropriate time.
    Senator Cochran. Without objection it is so ordered.
    Senator Levin. One of your last paragraphs, Mr. Perle, says 
that you believe the U.S. stockpile of nuclear weapons is 
larger than is necessary for deterrence and can safely be 
reduced. And I want to just press you on that issue. I know you 
very much favor a national missile defense, and that came later 
in your statement near the end. But in the absence of a 
national missile defense, would you still agree that it is 
possible, at least, that we could reduce our nuclear weapons 
stockpile below the START II level in a safe way?
    Mr. Perle. Yes, I think so.
    Senator Levin. All right. If it would be helpful in that 
regard to work out some kind of a framework agreement with the 
Russians, which does not amend START II--it leaves START II 
exactly as we have negotiated--but then says that upon START II 
coming into force, we would then seek to negotiate a further 
reduction to some lower level than START II, would you be 
willing to consider such a framework agreement as possibly 
being in our national security interest?
    Mr. Perle. It could be. I would be cautious about framework 
agreements in general because there is a long history in our 
negotiations with the Soviets--and they are by and large the 
same people and in some cases by name and face the same 
people--there is a long history of framework agreements, which 
of necessity by definition are lacking in critical details, 
becoming an obstacle to good, well-crafted agreements because 
you have a general agreement in principle that the effect and 
consequences of which can be substantially altered, even 
undermined, by the way details are handled, and there is then, 
particularly in democratic societies, great pressure to wrap 
things up and concede on those very important details, but I 
see no problem whatsoever in making it clear to the Russians 
that we do not think they should be investing more money in new 
nuclear systems unless nuclear systems that they require are 
antiquated and unsafe. And I certainly would not want to rule 
out the substitution of safer for unsafe systems.
    Senator Levin. In that regard then, would you think it 
might be wise for us to seek some mechanism where we could 
provide a pathway to further reductions beyond START II so as 
to give the Russians the kind of assurance that they say they 
need to ratify START II?
    Mr. Perle. I am reluctant to take at face value the claim 
that the problem in the ratification of START II is the 
argument they have advanced and that you have cited. I think it 
is a more complicated picture than that, and I think this is an 
excuse. At the very least, it is an excuse. It may be more than 
an excuse.
    Senator Levin. All right. If you view it as an excuse, to 
remove that excuse----
    Mr. Perle. Yes, I would happily remove that.
    Senator Levin. To remove that excuse, would it not be in 
our interest to try to find some mechanism which lays out a 
pathway to a lower level since you acknowledge a lower level--
--
    Mr. Perle. Sure.
    Senator Levin [continuing]. Is consistent with our national 
security?
    Mr. Perle. Senator, given the very different circumstances 
that prevail after the end of the Cold War, I would not be 
adverse to our reducing to a level that we thought appropriate 
even in the absence of an agreement with the Soviet Union. I no 
longer believe that what was at one time the importance of not 
making unilateral reductions under any circumstances applies. 
We should have the force that we think makes sense, that we 
think meets our security requirements, and in some respects 
that will turn out to be independent of the size and nature of 
the Russian force.
    Senator Levin. And that being true--that we would consider 
a reduction below START II unilaterally--is it not doubly true 
then that working out some appropriate pathway to such a 
level--which would remove the excuse, in your words, but 
however it is viewed--and permit the Duma to move to 
ratification of START II, might be in our interest?
    Mr. Perle. Sure.
    Senator Levin. Would you agree that Russia is no longer our 
adversary?
    Mr. Perle. I certainly do not consider them our adversary. 
I think they still have people in positions of responsibility 
who regard us as an adversary, however, and I----
    Senator Levin. You personally do not regard them as an 
adversary?
    Mr. Perle. No. They are too disorganized to be an 
adversary.
    Senator Levin. Other than that?
    Mr. Perle. Well, I think clearly there is a struggle going 
on among competing views of what Russia should be. They are 
going through a kind of national identity crisis, the outcome 
of which is uncertain. So while I do not believe that Boris 
Yeltsin is seized with the importance of maintaining a nuclear 
capability superior to that of the United States, I do not know 
what will come next, and I think in this very uncertain 
situation our focus ought to be on structuring our military 
forces, nuclear and non-nuclear, in way that we think meets our 
security requirements and that recognizes the inherent 
uncertainty about where Russia will be and what the next 
Russian leadership will consider to be in their interest.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator. Let me ask a couple of 
questions about some current topics of concern. One is in Libya 
today at Tarhuna, there is concern about the development of a 
weapons capability in an underground--I do not know all the 
intelligence, and I am not a member of the Intelligence 
Committee, and I do not mean to be divulging any secrets 
because I do not know any secrets on this subject, but this is 
what I have read in the paper--where there may be an effort to 
develop a weapon of mass destruction of some kind, chemical, 
who knows what. There was a question asked of an assistant to 
the secretary of defense for nuclear, chemical and biological 
defense, April of last year; Dr. Harold Smith was the witness. 
He said when he was asked do we have a weapon that we could use 
if we felt it was in our security interest to destroy that 
facility, recalling that Israel took a similar action when Iraq 
was developing what it considered to be a nuclear capability, 
and they took out a plant, Dr. Smith said ``We could not take 
it out of commission using strictly conventional weapons.''
    Now, I assume from his answer that we might be able to take 
it out of commission if we used some kind of weapon, and the 
only kind of weapon I think we would have would be a nuclear 
weapon. So, it would seem that the capability to destroy a 
target like that may be a reason to have nuclear weapons in our 
arsenal. If our security we were threatened by the development 
of a weapons of mass destruction production facility, this 
capability is something that we would like to have. General 
Goodpaster and Mr. Perle, do you believe Dr. Smith is 
incorrect? Could we destroy such a target with conventional 
forces only, and if not, do you agree that we do need to 
maintain a nuclear capability under such circumstances if we 
decided that it was in our security interest to destroy a 
target like that?
    General Goodpaster. Well, if I could answer first, let me 
say that I think that Harold Smith knows what he is talking 
about, and I would honor his statement and his judgment. It is 
not immediately sure, however, that nuclear weapons could do 
what he says the conventional weapons could not do. I think 
this would be a matter if we are confronted with that 
situation, this would be a matter on which very, very thorough 
and careful analysis would be required by our military 
authorities, and I do not know what the outcome of that would 
be.
    Senator Cochran. Mr. Perle.
    Mr. Perle. Well, I think it is likely that a nuclear weapon 
of sufficient size could destroy even that plant, and so I for 
that and for other reasons would not wish to give up nuclear 
weapons, but I do think that we should be working hard at 
developing a conventional capability to attack and destroy 
targets of that nature. I believe that we have the component 
technologies to do that, and the issue is will we fashion them 
into a system capable of going after deep underground 
structures?
    I think it is a serious shortcoming in the arsenal that we 
do not have, but during the Gulf War we cobbled something 
together rather quickly which was brilliantly innovative. We 
used long withdrawn from service artillery tubes, maybe naval 
guns--I do not recall--and converted them into bombs, and they 
were able to penetrate very substantial distances and destroy 
underground bunkers. That is a very useful capability to have. 
We ought to have something in the arsenal that can do that, and 
this is a bit off the subject, but it worries me a lot, that 
the budget for investment in technologies of this kind has been 
declining so rapidly that if we do not find a way to reorganize 
the way we use our defense resources, we will find that we are 
missing an opportunity to develop non-nuclear substitutes for 
nuclear weapons.
    Senator Cochran. It strikes me that we were confronted by a 
similar situation when North Korea appeared to be proceeding to 
develop a nuclear weapon capability. There was a lot of 
question about what was going on, where it was taking place, 
perhaps in underground facilities, and there were discussions 
about what to do, not necessarily at the highest level of 
military strategy but here in the Senate. I know on a trip I 
took with others to Korea, we had reason to talk about this 
with our military leaders there, to try to find out what the 
risk was. We have 37,000 troops in South Korea right now, and 
the threat that they would be under with a nuclear weapon 
capability in North Korea is very troubling. Today Secretary 
Slocombe said that the North Korean nuclea proglem is 
effectively under control now. We hope it is. What is your view 
of that situation? Is that another argument for a continuing 
nuclear capability for the purpose of deterring the 
construction and the development of a nuclear weapon capability 
on that Korean peninsula? Mr. Perle, I will ask you that.
    Mr. Perle. Clearly, if we did not have a nuclear 
capability, it would only encourage the North Koreans to try 
even harder to get one because the effect that their acquiring 
a nuclear monopoly would have. So the answer is unambiguously 
yes, and it is precisely in this sort of situation that it 
becomes very clear that the idea that our nuclear force somehow 
encourages proliferation is seen for the nonsense it is. It 
discourages proliferation in my view.
    Senator Cochran. General Goodpaster?
    General Goodpaster. I would concur with that. The moment 
you say that a nuclear threat is being generated against us, I 
think you call into the question the use of our nuclear 
capabilities because one of their roles is, under counter-
proliferation, to deter and if necessary defeat and destroy 
quickly and decisively any nuclear threat to us or to our 
allies.
    Senator Cochran. I am going to conclude with a question 
about the statement by the international generals and admirals 
of a prerequisite that they mentioned before we can contemplate 
total disarmament in nuclear weapons capability. One was an 
effective system for collective security. And Mr. Perle, I 
wanted to ask you is there reason to believe that the 
elimination of nuclear weapons can be a reasonable goal for the 
foreseeable future if effective systems for collective security 
are a necessary precondition?
    Mr. Perle. Well, I do not know what the generals and 
admirals have in mind when they talk about collective security. 
If they have in mind some universal serenity in which none of 
us is concerned because we all love one another, I mean that is 
the utopian never-never land, and it is never helpful, never 
helpful, to the construction of sound policy to establish an 
unrealistic goal. This is not like difficult to achieve goals 
in the moral or spiritual sphere where it is a good thing to 
strive to be, to achieve moral and spiritual qualities that are 
very hard to achieve and maybe can never be achieved, but it 
does not do any harm to try. Adopting a goal that is 
unrealistic almost certainly leads to unwise policies 
underneath that goal because they distract you from what is 
important and what is essential.
    And to say that we could only eliminate all nuclear weapons 
if we had a system of collective security of such majesty that 
we were no longer threatened by somebody else's nuclear weapon 
simply confuses the issue. So my answer is you can make a list 
as long as you like of the preconditions, and after you have 
solved all of the preconditions that one can talk about 
rationally, you still are left with the fact that you could not 
verify it. You are still left with the near certainty that 
nuclear powers would cheat, and you are still left with the 
fact that even if you did accomplish the total elimination of 
nuclear weapons, 1 day they could be rebuilt the next.
    Senator Cochran. That was going to be my last question. In 
light of one of the experiences from the war in Iraq, the 
verification of what is going on there now is subject to 
question, even with the implementation of the most intrusive 
inspection process in history by the International Atomic 
Energy Agency and others who are responsible for making sure 
that Iraq is not developing or continuing to hide weapons of 
mass destruction. This leads you to the question about another 
prerequisite of the international generals and admirals, which 
is verification and enforcement. Is there a regime for 
international verification that can realistically be expected 
to be available in the foreseeable future, and I ask this of 
General Goodpaster and Mr. Perle as well? Is that something 
that is so far in the future that it is not really a realistic 
criteria or prerequisite?
    General Goodpaster. That is part of what we do not know how 
to do at the present time, and the setting of prerequisites is 
a task that will have to be worked on during this period while 
our nuclear arsenals go down in size. So I think where we are 
in this is to do what we can do and continue to study and 
formulate the prerequisites and the means of accomplishing 
those prerequisites, but the reason that I do not believe it is 
fruitful to debate complete abolition or complete elimination 
today is, first, we have not really come down on just what the 
prerequisites are, and, second, we are far from being able to 
say how those could be met.
    Senator Cochran. Thank you. Mr. Perle.
    Mr. Perle. Well, I agree with General Goodpaster, and that 
seems to me a very good reason for not repeating this cliche 
that it is a useful goal to achieve the total elimination. The 
selection of goals should not be divorced from reality, and the 
reality is we cannot answer the critical questions about the 
prerequisites with any confidence so let us wait and see 
whether that is a good goal or not. What troubles me and the 
reason why I keep harping, it may seem academic, and anybody 
watching this hearing today would say, well, when we really got 
into it, nobody made much of a defense of the goal, and I think 
Senator Levin wisely chose to comment on other things rather 
than defend the goal of eliminating all nuclear weapons, the 
goal is part of a logical structure. If the ideal world is one 
without nuclear weapons, then the next best thing would be, I 
suppose, a world with one nuclear weapon, and after that with 
two, and after that with three and so forth.
    That misses the point entirely because the goal ought to be 
a stable, credible, effective nuclear deterrent that defends 
the interest of the United States, and you do not arrive at all 
of the decisions you need to make in achieving that realistic 
and important goal by confusing yourself with the idea that 
anything above zero is bad and the larger above zero, the more 
above zero, the worse it is. So I think we need a new long-term 
goal, and that new long-term goal is not the elimination of 
nuclear weapons, but it is the management of threats to our 
security, and if we focus on that as the goal, we will wind up 
probably with lower levels because I think the conditions are 
ripe for lower levels, but we will not confuse ourselves about 
where we are headed.
    Senator Cochran. One thing that I cannot end the hearing 
without asking what is wrong with comparing what both General 
Goodpaster and Butler have said with what President Reagan 
suggested at Reykjavik? You were an advisor at that time. Is 
there a difference?
    Mr. Perle. Well, there are several differences. One is that 
in the closing session at Reykjavik on the Sunday, the 
proposition that was on the table and about which drafts had 
been exchanged called not for the elimination of all nuclear 
weapons but for the elimination of all offensive ballistic 
missiles. And it was our judgment that the elimination of 
offensive ballistic missiles, given the balance of ballistic 
missiles between the United States and the Soviet Union, would 
enhance our security. In that last session on the Sunday, 
Gorbachev said in exasperation because he did not like our 
proposal much--he wanted to hold on to those missiles--he said, 
well, why not just give them all up? And the President said, 
well, that sounds fine to me. Now, this was the kind of 
exchange that takes place seldom at summits, to be sure, but 
takes place when people are discussing ideas in a broad sense. 
It was not a proposal in any meaningful sense. It was never 
written down. It was never formulated in a way that could be 
acted upon.
    And it was all conditioned on the substitution of defenses 
for offenses, and what President Reagan had in mind in some 
future world was one in which we had a near perfect or perhaps 
even a perfect defense so that if someone did cheat, the effect 
of that cheating would be nugatory; we would be able to defend 
against any weapon that was held improperly. And that at the 
end of the day is the inescapable concern. If you cannot be 
sure that somebody else does not possess a nuclear weapon, then 
you would be foolish to give up your own unless you had a 
defense. If you had a perfect defense, that would change the 
situation entirely.
    The irony is that if you look at the list of people, the 
admirals and generals who signed that statement--there are 60 
of them--I doubt if there are three on there who favor a 
defense. I think General Goodpaster would favor a defense, but 
he can speak for himself, but I think a great many of those 
admirals and generals would not favor a defense or at least 
they would not say that they favored a defense.
    Senator Cochran. This has been an enormously helpful and 
interesting hearing to me, and I want to express the sincerest 
appreciation for your participation in the hearing and for 
Secretary Slocombe's as well. Already, we have given permission 
to Senator Glenn to submit questions that could be answered for 
the record. We may also have additional questions that we would 
like to submit to the witnesses, and we hope that you can 
respond to those, if you will, for the purpose of our hearing 
record.
    There being no other witnesses to come before the Committee 
today, this hearing is adjourned.
    [Whereupon, at 12:10 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


                   OPENING STATEMENT BY SENATOR GLENN
    Today marks a change in the structure of this Committee--the 
resurrection of a subcommittee devoted in part to issues relating to 
the global spread of the world's most dangerous weapons. I remember 
well back in 1977 when I successfully urged then-Chairman Ribicoff to 
establish a subcommittee called ``Energy, Nuclear Proliferation, and 
Federal Services,'' whose title in 1981 became ``Energy, Nuclear 
Proliferation and Government Processes.'' I believed then, just as I 
believe now, that the global spread of nuclear weapons and other 
weapons of mass destruction merited close attention by the Congress. I 
have every hope that the Committee will continue its excellent record 
on this subject well in the future.
    When I became chairman of this Committee in January 1987, I 
abolished this subcommittee because I wanted to address proliferation 
issues at the full Committee level. I am certain that Sen. Cochran will 
give the subject the attention it deserves through this new 
subcommittee. I look forward to working with him and the ranking 
member, Senator Levin, whose interest in this area is longstanding, and 
who will also have many opportunities to address this issue as the 
ranking member of the Armed Services Committee.
    I look at the subject of today's hearing--the future of nuclear 
deterrence--as encompassing some of the most important issues on 
America's national security agenda today. It requires us to think 
closely about what roles and missions we can expect our nuclear forces 
to perform in the years ahead. It requires us to consider the 
possibility that other nations may now be trying to copy what the U.S. 
has achieved by way of nuclear deterrence capabilities. The subject 
will take us into the realms of missile defense, new threats arising to 
U.S. interests from the Third World, the danger of a resurgence of old 
threats, the challenges posed from maintaining U.S. security in an age 
of shrinking Federal budgets, and the ways that America's treaties are 
working to preserve U.S. strategic interests.
    I congratulate Sen. Cochran for the level of attention he intends 
to devote to proliferation-related issues and offer may full 
cooperation for a strong bipartisan effort in this area throughout the 
new Congress.
    Since the subcommittee also has jurisdictional responsibilities for 
the areas of civil service and postal service, Senator Cochran's plate 
will undoubtedly be full in this era of reinventing government, 
downsizing of the civil service, and intensified search for economies 
and efficiencies in government. I look forward to working with him and 
Senator Levin in these areas as well.
    [Questions for Under Secretary Slocombe from Senator Glenn 
follows:]
       QUESTIONS FOR UNDER SECRETARY SLOCOMBE FROM SENATOR GLENN
Post-Cold War Challenges to Nuclear Deterrence
    1. Russia's Defense Minister has warned recently that he may not be 
able to ensure the safety and reliability of his nuclear arsenal--in 
terms of U.S. policy responses that would likely enhance stability, is 
this threat best addressed on the ground in Russia (e.g. via 
Cooperative Threat Reduction) or on the ground in America (e.g. by 
expanding the U.S. strategic nuclear arsenal, resuming U.S. nuclear 
testing, developing a new generation of nuclear weapons, and deploying 
immediately a national missile defense system)?

          Answer: Defense Minister Rodionov's comments may have been 
        intended to encourage additional funding for the Russian 
        military. We believe that the Ministry of Defense continues to 
        exercise control over Russia's nuclear weapons and the Ministry 
        of Atomic Energy exercises tight control over the dismantled 
        nuclear weapons stockpile. Nevertheless, through the 
        Cooperative Threat Reduction (CTR) program, we are helping to 
        enhance the stability of the Russian nuclear arsenal by working 
        with Russia on assistance projects to improve the security, 
        control, and accounting of their nuclear weapons. For example, 
        CTR is providing assistance to improve security at nuclear-
        weapon storage sites in Russia and to implement an automated 
        inventory control and management system that will enhance the 
        Russian MoD's capability to account for and track their nuclear 
        weapons. We are working with Russia on a number of projects 
        designed to enhance the security of Russian nuclear weapons and 
        weapons components while being stored or transported to 
        dismantlement facilities. These activities complement the 
        strategic deterrent that we have maintained and will continue 
        to maintain through START II and any further agreed reductions 
        in offensive strategic forces.

    2. Your testimony disputes the existence of a class of countries 
that two former Secretaries of Defense have termed ``undeterrable''; 
you also testified that nuclear weapons can deter ``rogue states with 
WMD programs''--(a) Are neighbors of such states thus justified in 
seeking their own bombs? (b) Do only U.S. bombs deter?

          Answer: (a) The fact that nations are, in principle, not 
        undeterrable does not, in itself, justify a nation seeking 
        nuclear weapons. As of 1 March 1997, 185 countries have signed 
        the Nuclear Non-Proliferation Treaty, which indicates that they 
        have concluded that possession of nuclear weapons does not 
        serve their security interests even given the existence of 
        other declared and undeclared nuclear powers. Multiple means 
        exist that preclude the need for a state to acquire nuclear 
        weapons, including being a party to the NPT and other non-
        proliferation agreements, reliance on U.S. and alliance 
        security guarantees, and the like. Through participation in one 
        or more of these mechanisms, states bordering rogue states 
        don't need nuclear weapons to guarantee their security.

          (b) No. But, as stated above, the fact that deterrence is 
        possible is not, in itself, a justification for a nation 
        seeking nuclear weapons.

    3. How does your department contribute to U.S. efforts against WMD 
proliferation by countries that are not ``rogue states'' and do you 
regard such proliferation as destabilizing or inimical to U.S. security 
interests?

          Answer: DoD believes that in general further proliferation of 
        nuclear weapons is not in U.S. interests. Regarding South Asia, 
        for example, in a presentation to the Foreign Policy 
        Association earlier this year, former Secretary Perry stated, 
        ``We believe that a strong defense relationship and increased 
        cooperation [with India and Pakistan] will allow us to better 
        pursue our common security interests, but, at the same time, 
        they will provide a better basis for working out the policy 
        differences which we have with each of those countries. .  .  . 
        we find India and Pakistan's position on nuclear proliferation 
        unpalatable. But to use this as a reason to disengage from the 
        region, or to avoid deepening our security ties with these 
        nations, could undermine efforts to cap their destructive 
        capability. It could even help push them into an unfettered 
        arms race. That would be disastrous. I believe that we can best 
        help to avoid the disastrous by building bridges of trust 
        between the United States and India and between the United 
        States and Pakistan.''

          With that as our guidance, Department of Defense has 
        attempted to build bridges of trust through the strengthening 
        our bilateral defense relationships and increasing our 
        military-to-military cooperation within the established legal 
        limitations.

    4. How will arms reductions beyond START II and III likely affect 
America's ability to maintain its nuclear umbrellas in Europe and East 
Asia? Will these cuts affect the proliferation risk in those regions?

          Answer: The arms reductions agreed to under START II will not 
        affect our ability to maintain a credible nuclear deterrent for 
        allies and friends in Europe and East Asia, nor will the 
        reductions that are likely under START III. By the same token, 
        these forces, along with our other military capabilities, will 
        continue to serve as a deterrent to proliferant threats against 
        U.S. allies.

    5. Is it a current mission of U.S. nuclear forces to preempt, to 
deter, or to respond to chemical weapons attacks on the United States 
or its allies emanating from the Third World?

          Answer: The mission of U.S. nuclear forces is to help deter 
        attacks on the United States, its allies or interests. Nuclear 
        weapons are part of our overall defense posture which is 
        designed, in its totality, to contribute to the deterrence of 
        any state threatening the United States or its allies including 
        with chemical weapons. However, nuclear forces are only one of 
        several options available. We have a broad range of 
        conventional offensive response options, as well as active and 
        passive defenses. As a long-standing policy, the U.S. does not 
        specify in advance what response we would make to CW use, a use 
        which would be in violation of the laws of armed conflict. 
        However, it is our policy that we would consider all options in 
        response to a CW/BW attack and that our response would be 
        absolutely overwhelming and devastating. Former Secretary Perry 
        added, ``in every situation I have seen so far, nuclear weapons 
        would not be required for response. That is, we could have a 
        devastating response without the use of nuclear weapons, but we 
        would not forswear that possibility.''

    6. Is it a current mission of U.S. nuclear forces to preempt, to 
deter, or to respond to aggression against the United States or its 
allies involving only the use of conventional weapons?

          Answer: The mission of U.S. nuclear forces is to deter 
        attacks on the U.S., its allies and interests. In general, we 
        do not now foresee circumstances in which it would be in our 
        interest to use nuclear weapons in response to a purely 
        conventional attack. However, we would assess the situation in 
        light of the circumstances then prevailing.

    7. Is America prepared to use the bomb against parties to the NPT 
or treaties establishing regional nuclear-weapons-free zones, if such 
countries attack the U.S. or its allies with chemical or biological 
weapons?

          Answer: A 1978 Presidential declaration provided so-called 
        Negative Security Assurances (NSA) for NPT NNWS. This assurance 
        has been reaffirmed many times, including at the highest levels 
        of the U.S. government. It says: ``The United States reaffirms 
        that it will not use nuclear weapons against non-nuclear-
        weapons States Parties to the NPT except in the case of an 
        invasion or an attack on the United States, its territories, 
        its Armed Forces or other troops, its allies, or on a State 
        towards which it has a security commitment, carried out or 
        sustained by such a nonnuclear-weapon State in association or 
        alliance with a nuclear weapon-state.'' Additionally, the 
        Protocols to the Treaty of Rarotonga and Treaty of Pelindaba 
        include a provision that each protocol party undertakes not use 
        or threaten to use a nuclear explosive device against any 
        treaty party or against any dependent territories within the 
        zone. This provision would come into effect once all 
        ratification and entry-into-force steps had been taken. In 
        connection with the Treaty of Pelindaba the USG stated: ``. . . 
        we will not limit the options available to the United States in 
        response to an attack using weapons of mass destruction.'' See 
        also the answer to question 5.

    8. A Brookings analyst has estimated that the minimum total 
historical cost of the U.S. nuclear arsenal was at least $4 trillion 
(in constant 1996 dollars)--(a) Was that a fair estimate? (b) For the 
record, can you estimate the total costs (including the stockpile 
stewardship, operations and maintenance, C\3\I, personnel, cleanup, 
etc.) of the U.S. nuclear arsenal at the START I and START II force 
levels from 1997-2010? (c) Assuming a ceiling of 2,000 weapons, can you 
estimate the savings from moving to START III in the same period?

          Answer: The Brookings analysis consolidated government-wide 
        data in Fall 1995, including the estimated expenditures of the 
        DoD, DoE, International Atomic Energy Agency, Arms Control and 
        Disarmament Agency, Defense Nuclear Facilities Safety Board, 
        Justice Department, and a host of other government activities. 
        The Brookings analysis only looks at historic data, l950s to 
        FY95. Reporting future expenditures, as you have requested, is 
        more difficult because we cannot predict the force structure 
        out to 2010. However, I can speak to some DoD estimates that 
        were developed as part of our START I and START II assessments. 
        If we maintain the START II force structure though FY2010, the 
        DoD cost (force structure, operations and maintenance, 
        personnel) is $7-$8 billion per year. To decide to maintain 
        START I forces out to FY2010 would cost an estimated $10-$12 
        billion more over the FY1997-FY2010 period (the cost per year 
        varies from a few million to over a billion dollars). 
        Additionally, we understand that DOE plans to spend 
        approximately $4 billion per year over the next 10 years on 
        stockpile stewardship. As for START III, there is no decision 
        on the force structure, but it would be reasonable to assume 
        that the budget per year would be somewhat less than that of 
        START II depending on the force structure.
Future of Nuclear Deterrence in the Third World
    1. Former CIA directors James Woolsey and John Deutch have each 
testified that they could not think of an example where the 
introduction of nuclear weapons into a region has enhanced that 
region's security or benefited the security interests of the United 
States--do you agree?

          Answer: It is not clear what is the context of the statements 
        cited in the question. However, the statement is accurate in 
        regard to those regional powers that are the focus of our 
        current nonproliferation concerns.

    2. Are new regional balances of nuclear terror in the Third World 
likely to be stable or to make war less likely, and if not, how exactly 
will they affect U.S. security interests? Will the emergence of such 
deterrence relationships have any effect on U.S. nuclear targeting 
policy?

          Answer: The United States considers further proliferation of 
        nuclear weapons to be destabilizing and inimical to U.S. 
        interests, particularly in regions of tension, because it is 
        destabilizing and raises the prospect that a regional conflict 
        could result in the use of nuclear weapons. We, of course, have 
        to take the nuclear capability of any proliferator potentially 
        hostile to U.S. interests into account in our own planning.

    3. What is the role of U.S. nuclear weapons (both strategic and 
non-strategic) in current U.S. ``counterproliferation'' policy? What is 
the official military mission of the nuclear-armed Tomahawk?

          Answer: The goal of the Defense Counterproliferation 
        Initiative is to ensure that our forces are prepared to protect 
        themselves and to fight effectively on an NBC-contaminated 
        battlefield. We can accomplish this by equipping our forces 
        with active and passive defenses, counterforce capabilities, 
        and the supporting command, control, communications and 
        intelligence systems. Military preparations for operations in 
        an NBC environment make clear that threats of use or actual use 
        of NBC weapons will not deter the United States from applying 
        its military power to protect its vital interests. In addition, 
        effective capabilities to counter proliferation devalue the 
        potential political and military benefits of NBC weapons and 
        thus have a deterring effect on the acquisition and use of such 
        weapons by rogue states. In addition to these conventional 
        capabilities, U.S. nuclear forces also provide a significant 
        deterrent to proliferators to even contemplate the use of NBC 
        weapons.

          The nation's Non-Strategic Nuclear Force (NSNF) are available 
        to be deployed to or tasked to support theater nuclear 
        requirements and thereby link conventional forces to the full 
        nuclear capability of the United States. The Tomahawk missile, 
        in particular, since it would be carried on board our attack 
        submarines, gives the U.S. the ability, in a crisis, to hold at 
        risk key targets from a stealthy, offshore position.

    4. Are India and Pakistan now practicing nuclear deterrence as a 
basis for stability in South Asia? If so, how will U.S. interests be 
affected and what are the continuing risks of instability?

          Answer: Both India and Pakistan view their potential nuclear 
        capability as a central part of their national security. One of 
        our key objectives in the region is to keep the nuclear and 
        missile capabilities on both sides from escalating in order to 
        avoid an intensification of the South Asian nuclear arms race. 
        We therefore seek to cap, roll-back, and eventually eliminate 
        these capabilities. Currently, our objective is to seek Indian 
        and Pakistani adherence to global nonproliferation norms; 
        specifically to seek their accession to the Comprehensive Test 
        Ban Treaty and support for the negotiation of a Fissile 
        Material Cutoff Treaty.

    5. A recent Council on Foreign Relations report has urged the U.S. 
to drop its goal of rolling back the bomb in South Asia and to aim 
instead at fostering a ``a more stable plateau for Indo-Pakistani 
nuclear competition.''

      (a) Is nuclear rollback now an impossible U.S. nonproliferation 
goal in South Asia--is U.S. policy in the region now limited merely to 
preventing detonations or extra-regional bomb transfers?

          Answer: Our policy is not so limited. It is as stated in 
        response to question 4. Our near term challenge has been to 
        break the momentum and cap a potential South Asian nuclear arms 
        race through mutual restraint and confidence building measures. 
        Currently, our efforts are focused on getting both India and 
        Pakistan to become parties to the Comprehensive Test Ban Treaty 
        and to engage constructively in negotiations on the Fissile 
        Material Cutoff Treaty--two nondiscriminatory treaties that 
        both countries have long supported in principle. In parallel 
        with our efforts to stop the proliferation of nuclear weapons, 
        we have urged both sides not to be the first to produce or 
        deploy ballistic missiles which could trigger a missile race 
        with tragic consequences.

      (b) Would it advance U.S. nonproliferation objectives for America 
to assist India and Pakistan in managing their ``nuclear competition,'' 
as opposed to the current U.S. policy of opposing both bomb programs?

          Current U.S. policy is to oppose nuclear weapons programs in 
        both countries. For the near term, the U.S. can contribute to 
        the cause of regional stability by urging both countries to 
        expend maximum effort towards resolving differences, one by 
        one, through dialogue. We believe India and Pakistan should 
        revalidate confidence building measures (CBMs) agreed to years 
        ago. These include: a ``hotline'' between Directors General of 
        Military Operations; prior notification of major military 
        exercises; limitations on size and location of exercises; a 
        pledge not to attack each other's nuclear facilities; and a 
        prohibition on chemical weapons.

          We also believe India and Pakistan would benefit from 
        implementing additional CBMs, one example being a negotiated 
        end to their confrontation over the Siachen Glacier. There are 
        many civilian and military areas in which India and Pakistan 
        can strive to build a foundation for fruitful and cordial 
        relations. The U.S. should support the constructive efforts and 
        continue to disapprove of India and Pakistan's development of 
        nuclear weapons and their delivery systems.

          We should encourage both states to become parties to the CTBT 
        and to support negotiation of a Fissile Material Cutoff Treaty.

      (c) Does America have a strategic interest in assisting either 
Pakistan or India to have a safe and reliable nuclear arsenal and would 
such assistance square with U.S. obligations under the NPT?

          Answer: It is not our policy to assist either Pakistan or 
        India to have a safe and reliable nuclear arsenal. Of course, 
        it would be in the interest of any state which created a 
        nuclear weapons capability to ensure that is was as safe and 
        secure as possible.

      (d) The Council's report also urges new U.S. arms transfers to 
Pakistan as an instrument of nonproliferation policy--given the 
experience of past transfers for this purpose, how likely would such 
transfers either advance U.S. nonproliferation policy or assist 
Pakistan to achieve military parity with India?

          Answer: Government-to-government arm sales to Pakistan, of 
        course, continue to be prohibited under the Pressler Amendment. 
        In the case of India, we have abstained from major arms sales 
        that might alter the existing military balance of forces. 
        Simultaneously, the Department of Defense is actively involved 
        in the coordinated U.S. effort to convince India and Pakistan 
        that weapons of mass destruction do not provide the security 
        that each side perceives. DoD will continue to seek new ways, 
        within the bounds of U.S. law and policy, to expand military-
        to-military cooperation with both India and Pakistan.

    6. How would the introduction of an effective missile defense 
system in either India or Pakistan likely affect the nuclear weapons 
posture of the other country? Would such a development likely prove to 
be stabilizing?

          Answer: There are sharp differences of view about the 
        stability effect of missile defense systems. Since neither 
        India or Pakistan now has a deployed nuclear weapon-delivery 
        missile system, much less an anti-missile defense system, it is 
        not possible meaningfully to assess the application of these 
        debates to the South Asia case.

    7. What options would be available to China by way of a strategic 
response to the introduction of an effective missile defense system by 
either Russia or India? Would the deployment of effective missile 
defense systems throughout East Asia add to or jeopardize strategic 
stability in that region?

          Answer: Russia already has an ABM system consisting of about 
        100 nuclear-tipped ABM interceptors in the vicinity of Moscow 
        as permitted by the ABM Treaty. For a number of years, Russia 
        has also deployed a TMD system for use against shorter range 
        systems. China has embarked upon a strategic missile 
        modernization program even as Russian force readiness across 
        the board has significantly diminished and its ABM capability 
        has remained relatively static. Presumably one purpose of that 
        program is to enhance the capability of Chinese missiles 
        against defenses.

          Whatever may be the case with regard to the China-India-
        Russia case, deployment of TMD systems for defense against 
        rogue state missiles, especially from the DPRK, would be 
        stabilizing in East Asia, as well as elsewhere.

    8. Does America have a strategic interest in assisting China to 
have a safe and reliable nuclear arsenal?

          Answer: It is certainly in America's interest that China's 
        nuclear weapons are physically safe and not prone to 
        unauthorized or accidental launch. However, the United States 
        has not engaged in programs to assist China in ensuring the 
        safety and security of its nuclear arsenal, or dismantlement of 
        nuclear weapons, as we have with Russia.
National Missile Defense
    1. Have the existing technologies and components now under 
consideration for the national missile defense system been adequately 
and successfully tested under realistic conditions to justify full 
deployment by 2003? Would such systems guarantee that no foreign 
strategic missile would ever strike any point in the U.S.?

          Answer: No. Under Secretary Kaminski's recent testimony to 
        the SASC addresses the technical particulars of our NMD 
        program, including the test schedule. In summary, the 3 plus 3 
        program conducts sufficient development, albeit at high 
        schedule and technical risk, to allow a deployment decision to 
        be made in 2000 if a threat warrants. If the decision is made 
        in 2000, an IOC of an initial NMD system could be achieved in 
        2003, subject to the risks noted. This decision would 
        necessarily be based on limited test data and would only be 
        justified in the face of a clearly defined emerging threat to 
        the United States. In the absence of such a threat, we expect 
        to continue development and testing of the NMD system in order 
        to achieve the user's requirements. No system can guarantee 
        protection absolutely under all circumstances.

    2. For the record, what is your rough estimate of the total 
historical costs of U.S. national missile defense efforts?

          Answer: In determining the rough estimate of historical NMD 
        costs, SDIO/BMDO costs from FY85 through FY98 were selected 
        that could be attributed to a defined architecture for National 
        Missile Defense--Phase I, GPALS, NMD, and Technology Readiness. 
        The resulting cost estimate is approximately $15 billion, or 
        slightly more than one-third of the total SDIO/BMDO costs for 
        FY85 through FY98. This figure does not include research 
        programs that were part of the SDIO/BMDO advanced technology 
        base, e.g., space-based laser.

    3. As an issue of sound procurement practice, should the U.S. 
government deploy any missile defense system, technology, or key 
component that had not been successfully tested under realistic test 
conditions?

          Answer: No. Normally, the United States should not deploy a 
        national missile defense system (or anything else) without 
        adequate testing. The program that we have designed for the 
        ``objective'' NMD system employs adequate testing. Our ``3+3'' 
        philosophy would permit deployment of an initial NMD capability 
        in an emergency created by a threat emerging much more rapidly 
        than the intelligence community now expects. The ``3+3'' 
        program provides for testing appropriate to support a 
        deployment decision in such an urgent situation, but it 
        explicitly does not allow sufficient time before an FY 2000 
        deployment decision for traditional rigorous testing of the 
        system elements or the integrated configuration in the absence 
        of reason for a deployment.

    4. Say the U.S. unilaterally deployed an effective strategic 
national missile defense system by 2003--(a) How would this likely 
affect the offensive nuclear capabilities and postures of Russia and 
China? (b) What would be the implications for the future of START, the 
fissile material control convention, the CTBT, prospects for future 
cuts by nuclear weapons states other than the U.S. and Russia, and the 
NPT and ABM treaties?

          Answer: As the Administration has stated on numerous 
        occasions, the development of the U.S. NMD program--a limited 
        defense capability designed against a ballistic missile threat 
        from a rogue state--will be conducted in compliance with the 
        ABM Treaty. Depending on its configuration, a deployed NMD 
        system could either be compliant with the treaty as written, or 
        might require amendments of the Treaty's provisions, or, if the 
        necessary amendment could not be agreed, withdrawal. Amendment 
        should be possible because the type of limited ballistic 
        missile defense for the U.S. being considered would not affect 
        the strategic offensive postures of the declared nuclear 
        powers, nor should it have any effect on the arms control 
        treaties noted.

    5. If the U.S. should leave the ABM Treaty and deploy a multiple-
site national missile defense system, which American states would 
likely host such a system?

          Answer: No decisions have been made as to locations of NMD 
        sites. The elements of the NMD system are being designed to a 
        baseline set of requirements that would allow them to be 
        deployed in a flexible manner, depending on the emerging 
        threat. The Department is continuing to examine the issue of 
        specific NMD architectures, including where elements of the 
        system might be located.
Future of the ABM Treaty
    1. What are the key strategic benefits to the United States from 
continued membership in the ABM Treaty and how would these benefits be 
jeopardized by a U.S. or Russian abrogation of that treaty?

          Answer: The Administration considers the ABM Treaty to be a 
        cornerstone of strategic stability, as do many other states, 
        including key U.S. allies and START partners. The Treaty's 
        limitations on defenses against strategic ballistic missiles 
        provide a certain measure of predictability and foster a 
        situation conducive to reductions in strategic offensive 
        weapons.

    2. How would the demise of that treaty likely affect Russia's 
strategic offense and defense capabilities, and specifically, how 
confident are you that Russia will never be able to develop an 
effective response (offensive or defensive) to the U.S. deployment of 
an effective, multiple-site national missile defense system?

          Answer: How the hypothetical demise of the ABM Treaty would 
        affect Russian strategic capabilities cannot be determined in 
        the abstract, but instead would depend on the actual 
        circumstances at that time, such as the reasons for the 
        Treaty's demise. However, a hypothetical U.S. deployment of a 
        national missile defense system would not necessarily lead to 
        the demise of the ABM Treaty or prompt an adverse Russian 
        reaction. The Administration has made clear that the national 
        missile defense capabilities we are developing are not directed 
        at Russian strategic forces, but rather at the limited 
        potential threat that would be posed by rogue states were they 
        to acquire long-range ballistic missiles. If it were determined 
        necessary to deploy a national missile defense system for this 
        purpose at more than one site, the U.S. could seek Russian 
        agreement to amend the ABM Treaty to permit this. Under such 
        circumstances, U.S. deployment of a multiple-site national 
        missile defense would not necessarily elicit a Russian response 
        in either offensive or defensive terms, nor cause the demise of 
        the ABM Treaty.

    3. How does the ABM Treaty's ban on the proliferation of strategic 
missile defense systems serve U.S. security interests and how would the 
end of that ban, with the collapse of the ABM Treaty, jeopardize those 
interests?

          Answer: The ABM Treaty prohibits the parties from 
        transferring ABM systems or their components (or technical 
        descriptions or plans enabling their construction) to other 
        states. However, these provisions were formulated in the 
        context of the Cold War confrontation between the U.S. and the 
        then Soviet Union, and were not intended to address 
        contemporary proliferation problems. It is difficult to assess 
        in the abstract the net impact which termination of these ABM 
        Treaty provisions would have on U.S. security interests. 
        Moreover, the U.S. and Russia have undertaken other 
        international commitments that would also affect decisions to 
        transfer missile defense systems abroad, including the MTCR and 
        the Wassenaar Arrangement.

    4. If Russia developed what it termed a ``theater missile defense'' 
system that had significant capabilities against strategic missiles, 
and deployed that system to cover its entire territorial periphery--(a) 
What would be the impact of such a development upon the reliability of 
the U.S. nuclear deterrent and how would the U.S. likely have to 
respond? and (b) Are you confident that Russia could never develop or 
deploy such a system?

          Answer: Systems properly designed and tested as theater 
        missile defense systems to counter theater ballistic missiles 
        would not be able to perform effectively as ABM systems to 
        counter strategic ballistic missiles. In their May 1995 summit 
        joint statement of principles, Presidents Clinton and Yeltsin 
        agreed (inter alia) that theater missile defenses may be 
        deployed by each side which will not pose a realistic threat to 
        the strategic nuclear force of the other side and which will 
        not be tested to give such systems that capability, and that 
        theater missile defense systems will not be deployed by the 
        sides for use against each other. The U.S. and Russia are 
        engaged in negotiations intended to implement these principles 
        and to provide a clear demarcation between non-ABM systems 
        (such as those for theater missile defense) and ABM systems, 
        which are intended to counter strategic ballistic missiles. The 
        conclusion of the demarcation agreement we envisage would 
        preclude the hypothetical situation described by the question.

                               __________
            QUESTIONS FOR GEN. GOODPASTER FROM SENATOR GLENN
    1. Former CIA Directors James Woolsey and John Deutch have each 
testified that they could not think of an example where the 
introduction of nuclear weapons into a region has enhanced that 
region's security or benefited the security interests of the United 
States--do you agree? (Woolsey 2/24/93 and Deutch 3/20/96 (SGAC 
testimony).)

          Answer 1. From the creation, under General Eisenhower's 
        command in the early 1950s, of NATO's collective force in 
        Europe (the area with which I am most familiar) up to the end 
        of the Cold War, the availability of nuclear weapons support 
        and the presence of a nuclear capability in Europe in which our 
        allies shared (primarily with their delivery capabilities) 
        have, in my judgment, made a contribution of the highest order 
        to allied confidence in the deterrent, to the region's security 
        and to the security interests of the United States. I myself 
        rate that contribution as indispensable to the success achieved 
        by the alliance, including the United States.

    2. Last month, the Council on Foreign Relations released a report 
urging the U.S. to abandon its goals of preventing or reversing nuclear 
weapons proliferation in South Asia and to aim instead at establishing 
a ``more stable plateau for Indo-Pakistani nuclear competition''--Do 
you agree that it is either too late or impossible to stop or to roll 
back nuclear weapons proliferation in South Asia?

          Answer 2. I believe it should be a goal of the United States 
        to persuade India and Pakistan, insofar as possible, not to go 
        beyond their respective current stages of weapons development 
        and/or production, and to urge them to seek to resolve their 
        disputes by peaceful means. Until there has been substantial 
        progress in the latter regard, which cannot now be foreseen, it 
        seems unlikely that they will agree to any greater restraints 
        or reduction of their nuclear programs.

    3. Russia's Defense Minister has been warning recently that he may 
not be able to ensure the safety and reliability of his nuclear 
arsenal--in terms of their likely effectiveness, how would you assess 
the following as possible U.S. responses: (a) expanding the Cooperative 
Threat Reduction program; (b) immediate deployment of a national 
missile defense; (c) expanding the U.S. strategic nuclear arsenal; (d) 
resuming U.S. nuclear testing; and (e) developing a new generation of 
nuclear weapons?

          Answer 3. The continuation and, as practicable, extension of 
        the Cooperative Threat Reduction program seems clearly the most 
        promising course for the United States to follow. It reinforces 
        what should be the governing aim of U.S. security policy: The 
        building of an overarching relationship of cooperation and 
        friendship between Russia and the rest of the Euro-Atlantic 
        community, including the United States above all. The other 
        listed responses move in the wrong direction, and should be 
        considered only in the unlikely event Russia should revert to a 
        policy and practice of confrontation and mutual threat.

    4. What do you will expect will be the role (if any) of 
international organizations in verifying deeper reductions as a result 
of the START process?

          Answer 4. The IAEA has, and should have, the lead role in 
        nuclear arms reduction and non-proliferation verification. Its 
        functions should be strengthened (as its charter already 
        allows) and it should be supported financially, 
        technologically, and otherwise by the world's nations, notably 
        including the United States.
                               __________

  JOINT STATEMENT ON REDUCTION OF NUCLEAR WEAPONS ARSENALS: DECLINING 
                       UTILITY, CONTINUING RISKS
            By Generals Andrew J. Goodpaster and Lee Butler
    As senior military officers, we have given close attention over 
many years to the role of nuclear weapons as well as the risks they 
involve. With the end of the Cold War, these weapons are of sharply 
reduced utility, and there is much now to be gained by substantially 
reducing their numbers and lowering their alert status, meanwhile 
exploring the feasibility of their ultimate complete elimination.
    The roles of nuclear weapons for purposes of security have been 
sharply narrowed in tends of the security of the United States. Now and 
in the future they basically provide an option to respond in kind to a 
nuclear threat or nuclear attack by others. In the world environment 
now foreseen, they are not needed against non-nuclear opponents. 
Conventional capabilities can provide a sufficient deterrent and 
defense against conventional forces and in combination with defensive 
measures, against the threat of chemical or biological weapons. As 
symbols of prestige and international standing, nuclear weapons are of 
markedly reduced importance.
    At the same time, the dangers inherent in nuclear weapons have 
continued and in some ways increased. They include the risks of 
accidents and unauthorized launches--risks which, while small, 
nevertheless still exist. Seizures or thefts of weapons or weapons 
materials and threats or actual use by terrorists or domestic rebels, 
are of additional concern. Moreover, despite the nuclear Non-
Proliferation Treaty, nuclear weapons could spread to additional 
nations, with risk of their use in crisis or war. And if they should 
spread, the risks of accidents and of unauthorized, inadvertent, or 
deliberate use will spread as well.
    We believe the nations that possess these weapons should take the 
necessary steps to align their nuclear weapons policies and programs to 
match the diminished role and utility of these weapons, and the 
continuing risks they involve, joining in reducing their nuclear 
arsenals step by step to the lowest verifiable levels consistent with 
stable security, as rapidly as world conditions permit. Taking the 
lead, U.S. and Russian reductions can open the door for the negotiation 
of multilateral reductions capping all arsenals at very low levels. 
Added safety and an enhanced climate for negotiations would be achieved 
by removing nuclear weapons from alert status and placing the warheads 
in controlled storage. These arrangements should be applied to all 
nuclear weapons, discarding the distinction between tactical and 
strategic weapons, limiting nuclear warheads rather than launchers, and 
subjecting all weapons to inspection and verification measures.
    The ultimate objective of phased reductions should be the complete 
elimination of nuclear weapons from all nations. No one can say today 
whether or when this final goal will prove feasible, but because the 
phased withdrawal and destruction of nuclear weapons from all 
countries' arsenals would take many years, probably decades, to 
accomplish, time will be available--for work on technical problems, for 
political progress in ameliorating the conflicts and political 
struggles that encourage countries to maintain or to acquire nuclear 
weapons, and for building confidence in the system of safeguards and 
verification measures established to support the elimination regime.
    We believe the time for action is now, for the alternative of 
inaction could well carry a high price. For the task that lies ahead, 
there is need for initiatives by all who share our conviction as to the 
importance of this goal. Steady pursuit of a policy of cooperative, 
phased reductions with serious commitments to seek the elimination of 
all nuclear weapons is a path to a world free of nuclear dangers.

Signed,

    General Andrew J. Goodpaster, U.S. Army (Ret.), former Supreme 
Allied Commander in Europe (SACEUR) (1969-74)

    General Lee Butler, U.S. Air Force (Ret.), former Commander-in-
Chief, United States Strategic Air Command (1992-94); former Commander-
in-Chief, United States Strategic Command (1992-94)
                               __________
  STATEMENT ON NUCLEAR WEAPONS BY INTERNATIONAL GENERALS AND ADMIRALS
    We, military professionals, who have devoted our lives to the 
national security of our countries and our peoples, are convinced that 
the continuing existence of nuclear weapons in the armories of nuclear 
powers, and the ever present threat of acquisition of these weapons by 
others, constitutes a peril to global peace and security and to the 
safety and survival of the people we are dedicated to protect.
    Through our variety of responsibilities and experiences with 
weapons and wars in the armed forces of many nations, we have acquired 
an intimate and perhaps unique knowledge of the present security and 
insecurity of our countries and peoples.
    We know that nuclear weapons, though never used since Hiroshima and 
Nagasaki, represent a clear and present danger to the very existence of 
humanity. There was an immense risk of a superpower holocaust during 
the Cold War. At least once, civilization was on the very brink of 
catastrophic tragedy. That threat has now receded, but not forever--
unless nuclear weapons are eliminated.
    The end of the Cold War created conditions favorable to nuclear 
disarmament. Termination of military confrontation between the Soviet 
Union and the United States made it possible to reduce strategic and 
tactical nuclear weapons, and to eliminate intermediate range missiles. 
It was a significant milestone on the path to nuclear disarmament when 
Belarus, Kazakhastan, and Ukraine relinquished their nuclear weapons.
    Indefinite extension of the Nuclear Non-Proliferation Treaty in 
1995 and approval of the Comprehensive Test Ban Treaty by the UN 
General Assembly in 1996 are also important steps towards a nuclear-
free world. We commend the work that has been done to achieve these 
results.
    Unfortunately, in spite of these positive steps, true nuclear 
disarmament has not been achieved. Treaties provide that only delivery 
systems, not nuclear warheads, will be destroyed. This permits the 
United States and Russia to keep their warheads in reserve storage, 
thus creating a ``reversible nuclear potential.'' However, in the post-
Cold War security environment, the most commonly postulated nuclear 
threats are not susceptible to deterrence or are simply not credible. 
We believe, therefore, that business as usual is not an acceptable way 
for the world to proceed in nuclear matters.
    It is our deep conviction that the following is urgently needed and 
must be undertaken now:

          First, present and planned stockpiles of nuclear weapons are 
        exceedingly large and should now be greatly cut back;

          Second, remaining nuclear weapons should be gradually and 
        transparently taken off alert, and their readiness 
        substantially reduced both in nuclear weapon states and in de 
        facto nuclear weapon states; and

          Third, long-term international nuclear policy must be based 
        on the declared principle of continuous, complete and 
        irrevocable elimination of nuclear weapons.

    The United States and Russia should--without any reduction in their 
military security--carry forward the reduction process already launched 
by START: they should cut down to 1,000 to 1,500 warheads each and 
possibly lower. The other three nuclear states and the three threshold 
states should be drawn into the reduction process as still deeper 
reductions are negotiated down to the level of hundreds. There is 
nothing incompatible between defense by individual countries of their 
territorial integrity and progress toward nuclear abolition.
    The exact circumstances and conditions that will make it possible 
to proceed, finally, to abolition cannot now be foreseen or prescribed. 
One obvious prerequisite would be a worldwide program of surveillance 
and inspection, including measures to account for and control 
inventories of nuclear weapon materials. This will ensure that no 
rogues or terrorists could undertake a surreptitious effort to acquire 
nuclear capacities without detection at an early stage. An agreed 
procedure for forcible international intervention and interruption of 
covert efforts in a certain and timely fashion is essential.
    The creation of nuclear-free zones in different parts of the world, 
confidence-building and transparency measures in the general field of 
defense, strict implementation of all treaties in the area of 
disarmament and arms control, and mutual assistance in the process of 
disarmament are also important in helping to bring about a nuclear-free 
world. The development of regional systems of collective security, 
including practical measures for cooperation, partnership, interaction 
and communication are essential for local stability and security.
    The extent to which the existence of nuclear weapons and fear of 
their use may have deterred war--in a world that in this year alone has 
seen 30 military conflicts raging--cannot be determined. It is clear, 
however, that nations now possessing nuclear weapons will not 
relinquish them until they are convinced that more reliable and less 
dangerous means of providing for their security are in place. It is 
also clear, as a consequence, that the nuclear powers will not now 
agree to a fixed timetable for the achievement of abolition.
    It is similarly clear that, among the nations not now possessing 
nuclear weapons, there are some that will not forever forswear their 
acquisition and deployment unless they, too, are provided means of 
security. Nor will they forgo acquisition if the present nuclear powers 
seek to retain everlastingly their nuclear monopoly.
    Movement toward abolition must be a responsibility shared primarily 
by the declared nuclear weapons states--China, France, Russia, the 
United Kingdom, and the United States; by the de facto nuclear states, 
India, Israel and Pakistan; and by major non-nuclear powers such as 
Germany and Japan. All nations should move in concert toward the same 
goal.
    We have been presented with a challenge of the highest possible 
historic importance: The creation of a nuclear-weapons-free world. The 
end of the Cold War makes it possible.
    The dangers of proliferation, terrorism, and a new nuclear arms 
race render it necessary. We must not fail to seize our opportunity. 
There is no alternative.

Signed,

    International Generals and Admirals who have signed statement on 
Nuclear Weapons

CANADA
        Johnson, Major General Leonard V., (Ret.) Commandant, National 
        Defense College

DENMARK
        Kristensen, Lt. General Gunnar (Ret.) former Chief of Defense 
        Staff

FRANCE
        Sanguinetti, Admiral Antoine (Ret.) former Chief of Staff, 
        French Fleet

GHANA
        Erskine, General Emmanuel (Ret. former Commander in Chief and 
        former Chief of Staff, UNTSO (Middle East), Commander UMFII 
        (Lebanon)

GREECE
        Capellos, Lt. General Richard (Ret.) former Corps Commander
        Konstantinides, Major General Kostas (Ret.), former Chief of 
        Staff, Army Signals
        Koumanakos, Lt. General Georgios (Ret.) former Chief of 
        Operations
INDIA
        Rikhye, Major General Indar Jit (Ret.), former military advisor 
        to UN Secretary General Dag Akmmerskjold and U Thant Suit, Air 
        Marshall N. C. (Ret.)

JAPAN
        Sakonjo, Vice Admiral Naotoshi (Ret.) Sr. Advisor, Research 
        Institute for Peace and Security
        Shikata, Lt. General Toshiyuki (Ret.) Sr. Advisor, Research 
        Institute for Peace and Security

JORDAN
        Ajeilat, Major General Shafig (Ret.) Vice President Military 
        Affairs, Muta University
        Shiyyab, Major General Mohammed K. (Ret.) former Deputy 
        Commander, Royal Jordanian Air Force

NETHERLANDS
        van der Graaf, Henry J. (Ret.) Brigadier-General RNA, Director 
        Centre Arms Control and Verification, Member, United National 
        Advisory Board for Disarmament Matters

NORWAY
        Breivik, Roy, Vice Admiral Roy (Ret.) former Representative to 
        NATO, Supreme Allied Commander, Atlantic

PAKISTAN
        Malik, Major General Ihsun ul Hag (Ret.) Commandant, Joint 
        Services Committee

PORTUGAL
        Gomes, Marshal Francisco da Costa (Ret.) former Commander in 
        Chief, Army; former President of Portugal

RUSSIA
        Belous, General Vladimir (Ret.) Department Chief, Dzerzhinsky 
        Military Academy
        Gareev, Army General Makhmut (Ret.) former Deputy Chief, USSR 
        Armed Forces General Staff
        Gromov, General Boris, (Ret.) Vice Chair, Duma International 
        Affairs Committee; former Commander of 40th Soviet Army in 
        Afghanistan; former Deputy Minister, Foreign Ministry, Russia
        Koltounov, Major General Victor (Ret.) former Deputy Chief, 
        Department of General Staff, USSR Armed Forces
        Larionov, Major General Valentin (Ret.) Professor, General 
        Staff Academy
        Lebed, Major General Alexander (Ret.) former Secretary of the 
        Security Council
        Lebedev, Major General Youri V. (Ret.) former Deputy Chief, 
        Department of General Staff, USSR Armed Forces
        Makarevsky, Major General Vadim (Ret.) Deputy Chief, Kouibyshev 
        Military Engineering Academy
        Medvedev, Lt. General Vladimir (Ret.) Chief, Center of Nuclear 
        Threat Reduction
        Mikhailov, Colonel General Georgy (Ret.) former Deputy Chief, 
        Department of General Staff, USSR Armed Forces
        Nozhin, Major General Eugeny (Ret.) former Deputy Chief, 
        Department of General Staff, USSR Armed Forces
        Rokhlin, Lt. General Lev, (Ret.) Chair, Duma Defense Committee; 
        former Commander, Russian 4th Army Corps
        Sleport, Lt. General Ivan (Ret.) former Chief, Department of 
        General Staff, USSR Armed Forces
        Simonyan, Major General Rair (Ret.) Head of Chair, General 
        Staff Academy
        Surikov, General Boris T., (Ret.) former Chief Specialist, 
        Defense Ministry
        Tehervov, Colonel General Nikolay (Ret.) former Chief, 
        Department of General Staff, USSR Armed Forces
        Vinogradov, Lt. General Michael S. (Ret.) former Deputy Chief, 
        Operational Strategic Center, USSR General Staff
        Zoubkov, Rear Admiral Radiy (Ret.) Chief, Navigation, USSR Navy

SRI LANKA
        Karunaratne, Major General Upali A. (Ret.) (Sri Lanka)
        Silva, Major General C.A.M.N., (Ret.) USF, U.S.A. WC (Sri 
        Lanka)

TANZANIA
        Lupogo, Major General H.C. (Ret.) former Chief Inspector 
        General, Tanzania Armed Forces

UNITED KINGDOM
        Beach, General Sir Hugh (Ret.) Member, U.K. Security Commission
        Carver, Field Marshal Lord Michael (Ret.) Commander in Chief 
        for East British Army (1967-1969), Chief of General Staff 
        (1971-73), Chief of Defence Staff (1973-76)
        Harbottle, Brigadier Michael (Ret.) former Chief of Staff, UN 
        Peacekeeping Force, Cyprus
        Mackie, Air Commodore Alistair (Ret.) former Director, Air 
        Staff Briefing

UNITED STATES
        Becton, Lt. General Julius (USA) (Ret.)
        Burns, Maj. General William F. (USA) (Ret.) JCS Representative, 
        INF Negotiations (1981-88) Special Envoy to Russia for Nuclear 
        Weapon Dismantlement (1992-93)
        Carroll, Jr., Rear Admiral Eugene J. (USN) (Ret.) Deputy 
        Director, Center for Defense Information
        Cushman, Lt. General John H. (USA) (Ret.) Commander, I. Corps 
        (ROK/US) Group (Korea) 1976-78)
        Galvin, General John R., Supreme Allied Commander, Europe 
        (1987-92)
        Gayler, Admiral Noel (USN) (Ret.) former Commander, Pacific
        Homer, General, Charles A., (USAF) (Ret.) Commander, Coalition 
        Air Forces, Desert Storm (1991), former Commander, U. S. Space 
        Command.
        James, Rear Admiral Robert G. (USNR) (Ret.)
        Kingston, General Robert C. (USA) (Ret.), former Commander, 
        U.S. Central Command
        Lee, Vice Admiral John M. (USN) (Ret.)
        O'Meara, General Andrew (USA) (Ret.) former Commander U.S. 
        Army, Europe
        Pursley, Lt. General Robert E., USAF (Ret.)
        Read, Vice Admiral William L. (USN) (Ret.), former Commander, 
        U.S. Navy Surface Force, Atlantic Command
        Rogers, General Bernard W. (USA) (Ret.), former Chief of Staff, 
        U.S. Army, former NATO Supreme Allied Commander (1979-87)
        Seignious, II, Lt. General George M. (USA) (Ret.), former 
        Director Army Control and Disarmament Agency (1978-1980)
        Shanahan, Vice Admiral John J. (USN) (Ret.) Director, Center 
        for Defense Information
        Smith, General William Y., (USAF) (Ret.) former Deputy 
        Commander, U.S. Command, Europe
        Wilson, Vice Admiral James B. (USN) (Ret.), former Polaris 
        Submarine Captain

                                     

      

                                   - 
</pre></body></html>
